     Department of Homeland Security

     ��������������������������



 Hawaii’s Management of Homeland Security Grant 

Program Awards for Fiscal Years 2009 Through 2011 





OIG-14-25                              January 2014

                         OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                               Washington, DC 20528 / www.oig.dhs.gov


                                       JAN 7 2014

MEMORANDUM FOR:	             Brian E. Kamoie
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency
                           for
FROM:                        Mark Bell
                             Acting Assistant Inspector General for Audits

SUBJECT:	                   Hawaii’s Management of Homeland Security Grant Program
                            Awards for Fiscal Years 2009 Through 2011

Attached for your action is our final report, Hawaii’s Management of Homeland Security
Grant Program Awards for Fiscal Years 2009 Through 2011. We incorporated the formal
comments from the Office of Policy, Program Analysis and International Affairs and the
State of Hawaii in the final report.

The report contains 26 recommendations aimed at improving the overall effectiveness of
Hawaii’s management of Homeland Security Grant Program funds. Your office concurred
with 25 of the 26 recommendations. Based on information provided in your response to the
draft report, we consider recommendations 7, 17, and 19 resolved, and recommendations 1
and 2 closed. Once your office has fully implemented the recommendations, please submit
a formal closeout letter to us within 30 days so that we may close the recommendation(s).
The memorandum should be accompanied by evidence of completion of agreed -upon
corrective actions and of the disposition of any monetary amounts.

Recommendations 3 through 6, 8 through 16, 18, and 20 through 26 remain unresolved. As
prescribed by the Department of Homeland Security Directive 077-01, Follow-Up and
Resolutions for Office of Inspector General Report Recommendations, within 90 days of the
date of this memorandum, please provide our office with a written response that includes
your (1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation.

Please email a signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov. Until we receive and evaluate your response,
recommendation 24 is open and unresolved.
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Consistent with our responsibility under the Inspector General Act, we will provide copies of
   our report to appropriate congressional committees with oversight and appropriation
   responsibility over the Department of Homeland Security. We will post the report on our
   website for public dissemination.

   Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
   Assistant Inspector General for Audits, at (202) 254-4100.

   Attachment




www.oig.dhs.gov                                2                                       OIG-14-25
   December 12, 2013

   Ms. Anne L. Richards
   Assistant Inspector General for Audits
   Office of Inspector General
   U.S. Department of Homeland Security
   245 Murray Drive, S.W. Building 410
   Washington, D.C. 20528

   Dear Ms. Richards:

   Foxx & Company performed an audit of the State of Hawaii’s management of the
   Department of Homeland Security’s State Homeland Security Program and Urban Areas
   Security Initiative grants for Fiscal Years 2009 through 2011. The audit was performed in
   accordance with our Task Order No. TPDFIGBPA00006, Order No. 0002 dated
   September 24, 2012. This report presents the results of the audit and includes
   recommendations to help improve the State’s management of the audited State
   Homeland Security Program and Urban Areas Security Initiative grants.

   Our audit was conducted in accordance with applicable Government Auditing Standards,
   2011 revision. The audit was a performance audit as defined by Chapter 2 of the
   Standards and included a review and report on program activities with a compliance
   element. Although the audit report comments on costs claimed by the State, we did not
   perform a financial audit, the purpose of which would be to render an opinion on the
   State of Hawaii’s financial statements or the funds claimed in the Financial Status
   Reports submitted to the Department of Homeland Security.

   We appreciate the opportunity to have conducted this audit. Should you have any 

   questions, or if we can be of any further assistance, please call me at (513) 639-8843. 

   

   Sincerely, 




   Foxx & Company
   Martin W. O’Neill
   Partner




www.oig.dhs.gov                                                                         OIG-14-25 

                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2


   Results of Audit .................................................................................................................. 2


              State Homeland Security Strategies ...................................................................... 3 

              Recommendations ................................................................................................. 6 

              Management Comments and Auditors’ Analysis .................................................. 7 


              Policies and Procedures ......................................................................................... 8 

              Recommendations ................................................................................................. 9 

              Management Comments and Auditors’ Analysis ................................................ 10 


              Sole Source Procurements ................................................................................... 11 

              Recommendations ............................................................................................... 12 

              Management Comments and Auditors’ Analysis ................................................ 12 


              Personnel Time Charges ....................................................................................... 13 

              Recommendations ............................................................................................... 15 

              Management Comments and Auditors’ Analysis ................................................ 15 


              Subgrantee Monitoring ........................................................................................ 16 

              Recommendations ............................................................................................... 19 

              Management Comments and Auditors’ Analysis ................................................ 19 


              Property Management and Accountability ......................................................... 20 

              Recommendations ............................................................................................... 22 

              Management Comments and Auditors’ Analysis ................................................ 23 


              Obligations to Subgrantees .................................................................................. 24 

              Recommendations ............................................................................................... 26 

              Management Comments and Auditors’ Analysis ................................................ 26 


              Timeliness of Expenditures .................................................................................. 28 

              Recommendation ................................................................................................. 30 

              Management Comments and Auditors’ Analysis ................................................ 30 




www.oig.dhs.gov                                                                                                                 OIG-14-25

                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


           Expenditure Documentation ................................................................................ 30 

           Recommendations ............................................................................................... 34 

           Management Comments and Auditors’ Analysis ................................................ 35 


           Financial Reporting Compliance .......................................................................... 35 

           Recommendation ................................................................................................. 37 

           Management Comments and Auditors’ Analysis ................................................ 37 


           Equipment Usage ................................................................................................. 37 

           Recommendations ............................................................................................... 38 

           Management Comments and Auditors’ Analysis ................................................ 39 


           Fusion Center ....................................................................................................... 40 

           Recommendations ............................................................................................... 41 

           Management Comments and Auditors’ Analysis ................................................ 42 


   Appendixes
           Appendix A:         Objectives, Scope, and Methodology ........................................... 44 

           Appendix B:         Management Comments to the Draft Report .............................. 47 

           Appendix C:         Hawaii Grant Management Office Organization Chart ................ 68 

           Appendix D:         Description of the Homeland Security Grant Program ................ 69 

           Appendix E:         Potential Monetary Benefits ......................................................... 70 

           Appendix F:         Threat and Hazard Identification and Risk Assessment ................ 71 

           Appendix G:         Report Distribution ........................................................................ 72 


   Abbreviations
           CFR                  Code of Federal Regulations
           DHS                  Department of Homeland Security
           FEMA                 Federal Emergency Management Agency
           FY                   fiscal year
           HSGP                 Homeland Security Grant Program
           OIG                  Office of Inspector General
           SHSP                 State Homeland Security Program
           SPR                  State Preparedness Report
           UASI                 Urban Areas Security Initiative
           THIRA                Threat and Hazard Identification and Risk Assessment



www.oig.dhs.gov                                                                                                             OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, as amended, requires the Department of Homeland Security (DHS) Office of
   Inspector General (OIG) to audit individual States’ management of State Homeland
   Security Program and Urban Areas Security Initiative grants. This report responds to the
   reporting requirement for the State of Hawaii.

   The audit objectives were to determine whether the State of Hawaii distributed and
   spent State Homeland Security Program and Urban Areas Security Initiative grant funds
   effectively and efficiently, and in compliance with applicable Federal laws and
   regulations. We also addressed the extent to which grant funds enhanced the State of
   Hawaii’s ability to prevent, prepare for, protect against, and respond to natural
   disasters, acts of terrorism, and other manmade disasters. Appendix A contains details
   on the audit’s objectives, scope, and methodology. The State of Hawaii was awarded
   approximately $27.8 million in State Homeland Security Program and Urban Areas
   Security Initiative grants for fiscal years 2009 through 2011.

   In most instances, the State of Hawaii distributed and spent the awards in compliance
   with applicable laws and regulations. However, we identified areas where the State can
   improve its management of the grant funds: State Homeland Security Strategies,
   policies and procedures for day-to-day management activities, Federal procurement
   requirements, timeliness of expenditures, reporting personnel time charges, monitoring
   subgrantees, managing and accounting for property, obligating funds to subgrantees,
   documenting expenditures, and reporting on financial status of grants received. The
   State also must ensure that equipment procured was needed and used for the purposes
   intended. Management needed to ensure that the goals and objectives of the State’s
   fusion center supported national capability needs, and that the State did not rely solely
   on DHS funding to sustain fusion center operations in the future.

   Approximately $7.4 million in questioned costs were identified. The questioned costs
   resulted from the State not complying with Federal procurement rules, unsupported
   personnel time charges, and an inability to support the benefits received by local
   subgrantees for funds withheld by the State Administrative Agency.

   Our 26 recommendations call for the Federal Emergency Management Agency (FEMA)
   to initiate improvements, which, if implemented, should help strengthen grant program
   management, performance, and oversight. FEMA concurred with 25 of the 26
   recommendations. Written comments to the draft report are incorporated as
   appropriate and are included in appendix B.

www.oig.dhs.gov                                1                                       OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help State and local agencies enhance capabilities to prevent, deter, respond to, and
   recover from terrorist attacks, major disasters, and other emergencies. Within DHS,
   FEMA is responsible for administering the HSGP. FEMA supports preparedness by
   developing policies, ensuring that adequate plans are in place and validated, defining
   capabilities required to address threats, providing resources and technical assistance to
   States, and synchronizing preparedness efforts throughout the Nation. Appendix D
   contains a detailed description of the interrelated grant programs that constitute the
   HSGP.

   HSGP guidance requires the Governor of each State and Territory to designate a State
   Administrative Agency to apply for and administer grant funding awarded under the
   HSGP. Hawaii’s Department of Defense, Office of the Adjutant General is the designated
   State Administrative Agency, and the Grant Management Office within the Agency
   administers the grants. The Department of Defense, Office of the Adjutant General is
   the only entity eligible to apply for HSGP funds. The organization chart of the
   Department of Defense, Office of the Adjutant General is included in appendix C.

   From 2000 through 2012, the Hawaii State Civil Defense administered the HSGP.
   Afterwards, the Hawaii Department of Defense, Office of the Adjutant General became
   the State Administrative Agency. The official date of the transition was May 15, 2012.

   The State of Hawaii was awarded approximately $29.1 million in HSGP funds during
   fiscal years (FYs) 2009 through 2011. This included approximately $18.3 million in State
   Homeland Security Program (SHSP) funds and approximately $9.5 million in Urban Areas
   Security Initiative (UASI) grant funds. During this period, Hawaii awarded the SHSP grant
   funds to 4 local governments, 6 state agencies, and one university. The UASI grant funds
   were awarded to the City and County of Honolulu.


   Results of Audit
   In most instances, the State of Hawaii distributed and spent the awards in compliance
   with applicable laws and regulations. However, we identified the following areas where
   the State can improve and enhance its management of SHSP and UASI grants:

       •   State Homeland Security Strategies
       •   Policies and Procedures
       •   Sole Source Procurements
www.oig.dhs.gov                                 2                                       OIG-14-25

                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


       •	   Personnel Time Charges
       •	   Subgrantee Monitoring
       •	   Property Management and Accountability
       •	   Obligations to Subgrantees
       •	   Timeliness of Expenditures
       •	   Expenditure Documentation
       •	   Financial Reporting
       •	   Equipment Usage
       •	   Fusion Center

   These improvements will enhance Hawaii’s effectiveness in the overall use of the grant
   funds to improve preparedness and response capabilities and reduce the risk associated
   with the State’s management of FEMA grant funds.

            State Homeland Security Strategies

            Hawaii’s Homeland Security Strategy did not contain adequately defined goals
            and objectives to use in measuring performance. The State’s strategy was last
            updated in FY 2009 and did not provide a context (baseline) for measuring
            capability improvements. The strategies for FYs 2010 and 2011 were identical to
            the 2009 strategy. Without measurable performance levels for goals and
            objectives, the State could not evaluate the effects of grant expenditures on its
            preparedness and emergency response capabilities.

            Code of Federal Regulations (CFR) Title 44 § 13.40, Monitoring and reporting
            program performance, requires that grantees monitor grantee and subgrantee
            supported activities to assure that program goals are being achieved.
            Department of Homeland Security State and Urban Area Homeland Security
            Strategy Guidance on Aligning Strategies with the National Preparedness Goal,
            dated July 22, 2005, states that an objective sets a tangible and measurable
            target level of performance over time against which actual achievement can be
            compared, including a goal expressed as a quantitative standard, value or rate.
            Therefore, an objective should be:

                  •	 Specific, detailed, particular, and focused — helping to identify what is to
                     be achieved and accomplished;
                  •	 Measurable — quantifiable, providing a standard for comparison, and
                     identifying a specific achievable result;
                  •	 Achievable — the objective is not beyond a State, region, jurisdiction, or
                     locality’s ability;

www.oig.dhs.gov                                    3	                                       OIG-14-25

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                  •	 Results-oriented — identifies a specific outcome; and
                  •	 Time-limited — a target date exists to identify when the objective will be
                     achieved.

           The FEMA FY 2011 Homeland Security Grant Program Guidance and Application
           Kit stated that FEMA strongly encouraged States and Urban Areas to update
           their Homeland Security Strategies every two years beginning in 2011. Updates
           help ensure that existing goals and objectives reflect all FEMA mission areas, the
           National Priorities, and implement the whole community approach to
           emergency planning and management. Homeland Security Strategies should
           reflect an ongoing process of review and refinement as new lessons, new
           priorities, new challenges, threats, and hazards evolve. DHS Strategy Guidance
           states that updated State and Urban Area Homeland Security Strategies provide
           a context for performing the strategic exercise of asking, “How are we managing
           our homeland security programs?”

           The Grant Management Office Administrator said the 2009 strategy was
           reviewed in 2010 and the plan was to update it in 2011. A working group was put
           together to begin that process, but the group did not update the strategy. The
           Grant Management Office Administrator acknowledged that the strategy was in
           need of update. Grant Management Office officials also acknowledged that a
           formal assessment tool to measure improvements in preparedness resulting
           from use of grant funds was not available. In addition, Grant Management Office
           officials pointed out that DHS did not have a process or program for states to
           measure progress and improvement.

           The State’s 2009 strategy did not contain adequately defined goals and
           objectives to use in measuring performance, consistent with Federal
           requirements. The State’s goals and objectives were broad-based and did not
           provide for tracking and measuring the impact of funds expended for
           equipment, training, and exercises. Table 1 shows examples of the goals and
           objectives included in the State strategy. These examples clearly show that the
           2009 goals and objectives: (1) were not specific, detailed, particular, or focused;
           (2) did not identify outcomes; and (3) did not establish timeframes for the
           completion of the objectives.




www.oig.dhs.gov                                   4	                                       OIG-14-25

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Table 1. Examples of Goals and Objectives 

                              Goal                             Objective                    Assessment
            Reduce the risk to responders by        Enhance the response and         Goal not measureable,
            increased Statewide preparedness        recovery capabilities at all     time frames for achieving
            for any type incident (All-Hazards)     levels of the State by           goal not listed, outcomes
            through planning, training,             synchronizing emergency          not identified.
            exercises, and resourcing.              plans.
            Reduce risk to Statewide critical       Support the increase in the      Goal not measureable or
            infrastructure by implementing the      Homeland Security Advisory       specific, a time frame for
            National Infrastructure Protection      System.                          achieving goal not listed,
            Plan and the applicable supporting                                       outcomes to measure not
            Sector Specific Plans.                                                   quantified.
            To institute a resource and logistics   Develop exercises (drills,       Goal not measurable, no
            program that ensures the right          staff exercises) that improve    specific outcomes listed,
            equipment is purchased and is           the confidence in                a time frame for
            available in the right quantity to      implementing National            achieving goal not listed.
            support any incident regardless if it   Incident Management
            is natural or man-made.                 System.
            To develop a comprehensive              Standardize equipment            Goal not measureable
            communications program that             connectivity, operability, and   with specific outcomes
            includes standardized plans and         interoperability throughout      listed, a time frame for
            programs for connectivity,              the State.                       achieving goal not
            operability, and interoperability.                                       addressed.
            Implement fusion systems that           To improve the coordination      Goal not measureable
            streamline detection and prevention     of State, federal, local, and    with specific outcomes
            techniques by strengthening             private sector information       listed, a time frame for
            intelligence, information sharing,      and intelligence planning        achieving goal not
            and early warning capabilities.         and sharing.                     addressed.
           Source: State FY 2009 Strategy.

           The Grant Management Office Administrator acknowledged that such baselines
           had not been established to measure improvement. In this regard, one county,
           Hawaii County, saw the need to establish an across-the-board baseline, defining
           goals, targets, and objectives and providing funding to meet those goals, targets,
           and objectives. In an attempt to measure progress and improvement, the county
           established a baseline of their needs in 2008, based on national target
           capabilities. The county grant administrative officer said the county had started
           the baseline on their own. However, the county had not reviewed the baseline
           established in 2008, and told us that it was reluctant to independently do so. The
           county would like State or national participation for such a review.

           The Grant Management Office Administrator said that changes in the
           organization responsible for administering grants and personnel overseeing the
           Homeland Security grants in 2011 delayed the strategy updates. The personnel
           changes resulted in a loss of continuity and operating knowledge of DHS grant

www.oig.dhs.gov                                         5                                                 OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           requirements. According to the Grant Management Administrator, this loss of
           knowledge included the requirement for the update of the State strategies
           within the Grant Management Office. In addition, the Grant Management Office
           Administrator said that the State had not developed formal procedures covering
           monitoring progress, compiling key management information, tracking trends, or
           keeping the strategy on track.

           The Grant Management Office Administrator, when questioned why strategy
           objectives were not specific, measurable, results-oriented, and time-limited,
           agreed that the objectives should meet the Federal requirements. However, the
           Grant Management Office Administrator said that, for years there were only two
           people administering the grants with all the other related homeland security
           activities. Time availability limited what was done in developing the objectives.

           Without adequate measurable goals and objectives, the State did not have an
           adequate basis to evaluate the effect of grant expenditures on its preparedness
           and response capabilities. Furthermore, without measurable goals and
           objectives it was difficult to provide a context for performing the strategic
           exercise of asking, “How are we managing our homeland security programs?” as
           set forth in the DHS State and Urban Area Homeland Security Strategy Guidance
           on Aligning Strategies with the National Preparedness Goal. The shortcomings in
           goals and objectives also prevented the identification of baselines from which
           improvement could be measured and adequately assessed in determining future
           funding needs.

           In April 2012, FEMA required State and local governments receiving FEMA
           preparedness grants to complete a Threat and Hazard Identification and Risk
           Assessment (THIRA) by December 31, 2012. The THIRA provides a
           comprehensive approach for identifying and assessing risks and associated
           impacts, using the core capabilities identified in the National Preparedness Goal.
           In addition to the THIRA, States and territories receiving FEMA preparedness
           grants are required to annually submit a State Preparedness Report (SPR). FEMA
           officials stated that THIRA results and the SPR will provide a quantitative
           summary of preparedness. However, we did not review the THIRA process
           because it was not within the scope of our review. See appendix F for more
           information about the THIRA.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Office of the Adjutant General, Grant Management Office to:

www.oig.dhs.gov                                6                                        OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #1:

           Develop and implement policies and procedures to ensure that:
              •	 The State’s strategy is updated as required and includes goals and
                 objectives applicable to capabilities that are specific, measurable,
                 achievable, results-oriented, and time-limited;
              •	 Baselines are identified for the capabilities that will facilitate the
                 measurement of progress toward achieving the goals and objectives; and
              •	 A plan is formalized to monitor progress, compile key management
                 information, track trends, and keep the strategy on track.

           Recommendation #2:

           Include the progress achieved in accomplishing goals and objectives, along with
           the assessment of risk, in the decision making process for future grant funding
           decisions.

           Management Comments and Auditors’ Analysis

           FEMA and State Responses to Recommendations 1 and 2: FEMA and the State
           concurred with these recommendations. FEMA developed and implemented a
           new process to measure progress that includes the THIRA and SPR. Results from
           the THIRA and SPR highlight gaps in capability and the progress of grantees in
           closing those gaps over time. On December 31, 2012, states, territories, and
           major urban areas receiving HSGP funds, including Hawaii, were required to
           submit their THIRAs and SPRs to FEMA. The THIRA and SPR processes are
           scalable to allow sub-jurisdictions, subgrantees, and subject matter experts to
           provide input to the state or territory. According to FEMA, taken together, the
           THIRA results and the SPR identify capability needs and gaps, and highlight the
           progress of grantees in closing those gaps over time. FEMA reports the results of
           the capability assessments annually in the National Preparedness Report. The
           THIRA also provides capability targets that serve as specific metrics and the SPR
           tool provides standards measurement against the targets. Lastly the THIRA, SPR,
           and Investment Justifications will serve as the basis for statewide assessment
           and reporting. FEMA believes the intent of the recommendations has been
           satisfied with their actions and requested that the recommendations be closed.

           The State concurred with both Recommendations 1 and 2. The State said that
           the State Homeland Security Plan is under development and once completed a
           copy will be provided to DHS. Estimated completion is May 31, 2014.


www.oig.dhs.gov                                7	                                      OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Auditors’ Analysis: The actions taken by FEMA are responsive to the intent of
           recommendations 1 and 2. These recommendations are resolved and closed.

           Policies and Procedures

           The Grant Management Office did not have documented policies and procedures
           for the day-to-day management of DHS grants. The Grant Management Office
           Administrator recognized the need for a policies and procedures manual and
           issued one in November 2012. However, it did not contain policies and
           procedures covering the day-to-day activities managed by the Grant
           Management Office staff. As a result, the Office did not have documented
           policies and procedures that would facilitate staff training, succession planning,
           and continuity of operations. The Office could not ensure that the daily activities
           of the staff were consistently performed or that concerns were uniformly
           addressed.

           CFR Title 2 § 225, Cost Principles for State, Local, and Indian Tribal Governments
           Part A (2)(1)(a), states that governmental units are responsible for the efficient
           and effective administration of Federal awards through the application of sound
           management practices. Policies and procedures are essential management
           controls to the overall administration of programs and activities. A set of policies
           are principles, rules, and guidelines formulated or adopted by an organization to
           reach its long-term goals. Procedures are the specific methods employed to
           express policies in action in day-to-day operations of the organization. Together,
           policies and procedures are part of a system that provides operational
           consistency and uniformity. Documented policies and procedures facilitate cross-
           training of staff members, training of newly hire employees, and succession
           planning.

           According to the Grant Management Office Administrator, in May 2011, the
           Grant Management Office was reorganized and significant changes in staffing
           occurred. Several of the newly assigned staff with responsibility for the
           management of the grants did not have experience in complying with Federal
           requirements. The staff did not have policies and procedures to use as
           references in determining what to do and when to do it.

           Without documented policies and procedures, the Grant Management Office
           staff could not ensure that: (1) daily activities of the staff were consistently
           performed, (2) concerns were uniformly addressed, and (3) the continuity of the
           program and its operations were maintained when administrative changes


www.oig.dhs.gov                                 8                                        OIG-14-25

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           occur. According to the current Grant Management Office Administrator, control
           breakdowns occurred after the 2011 reorganization, including:

                  •	 The Initial Strategy Implementation Plan that was required to be filed
                     within 45 days following the 2011 grant award was not filed until 314
                     days past the deadline.
                  •	 The Biannual Strategy Implementation Report, which was to be filed
                     within 90 days after the end of the FY 2007 Period of Performance, was
                     filed 257 days past the deadline.
                  •	 The updating of Hawaii’s strategic plan that was planned for 2011 was
                     not completed.
                  •	 Many expenditure records for purchases made with grant funds were not
                     maintained.
                  •	 Items procured were not always included in the State’s inventory.
                  •	 Invoices from a contractor were not maintained in the Grant
                     Management Office’s records and the records were being reconstructed.

           Had an adequate policy and procedures manual existed and implemented prior
           to the 2011 reorganization, many of these issues may not have happened. The
           newly hired individuals would have been aware of the above requirements and
           could have completed these requirements in a timely manner.

           A policies and procedures manual was issued in November 2012, and contained
           requirements for administering grants. For example, the manual contained a
           listing of standard financial requirements that the Hawaii Department of Defense
           and subgrantees must follow, including a listing of CFR and Office of
           Management and Budget Circular requirements. However, the manual did not
           contain policies and procedures that specified the duties and responsibilities of
           the Grant Management Office staff.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Office of the Adjutant General, Grant Management Office to:




www.oig.dhs.gov                                 9	                                     OIG-14-25

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #3:

           Evaluate the effectiveness of the manual issued in November 2012 to ensure
           that the day-to-day activities within the Grant Management Office are
           performed in accordance with Federal requirements, and update the manual as
           necessary.

           Recommendation #4:

           Use the documented policies and procedures as tools for training new staff,
           succession planning, and ensuring consistent and uniform handling of day-to-day
           activities.

           Management Comments and Auditors’ Analysis

           FEMA and State Responses to Recommendation 3: FEMA concurred with the
           recommendation. FEMA will verify with the State that the updated Grants
           Management System and associated policies and procedures it uses are current
           and applicable to Federal requirements and conform to the HSGP. The State did
           not concur with recommendation 3. The State stated that a Standard Operating
           Procedure is under development. The City and County of Honolulu will also be
           developing an operational manual.

           FEMA and State Responses to Recommendation 4: FEMA concurred with the
           recommendation. FEMA will confirm that the State has a management tool in
           place, and that it includes policies and procedures to ensure that day to day
           activities for grants management, staff training, and planning are uniformly
           executed. The state did not concur with recommendation 4. The State said that
           the Procedural manual was not meant to be a day-to-day guide for the staff. The
           State also said that the last three bullets in the finding were not clarified.
           However, the State did not provide any documentation which supported that
           any of the last three bullets were not accurate.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendations 3 and 4. However, until FEMA provides a firm
           timetable for completion, these recommendations will remain unresolved and
           open.




www.oig.dhs.gov                               10                                     OIG-14-25

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Sole Source Procurements 


           The State of Hawaii expended at least $1,551,000 for equipment and
           professional services without competition. Required cost analyses in conjunction
           with the sole source procurements were not available during the audit fieldwork.
           As a result, the State Administrative Agency may have paid more for the
           equipment and services than necessary. Subsequent to our fieldwork, the State
           provided two cost analyses addressing $410,000 of the $1,551,000 questioned.
           However, because these analyses were submitted after fieldwork was
           completed, we did not verify the validity of the cost analyses.

           CFR Title 44 § 13.36, Procurement, (f)(1) requires that a cost analysis be
           performed for noncompetitive procurements, when adequate price competition
           is lacking, and for sole source procurements.

           Reviews of procurement activities during the audit showed that the local
           jurisdictions had prepared justifications for sole source procurements and that
           the justifications were approved in accordance with State of Hawaii and local
           procurement requirements. However, the local jurisdictions did not always
           conduct the required cost analysis. The following are examples of sole source
           procurements made without the benefit of required cost analyses:

                  •	 One subgrantee contracted to have a professional services study
                     performed for $500,000 with a known vendor. This included $200,000
                     funded by SHSP grant funds. The sole source procurement was approved
                     however, the subgrantee could not provide documentation supporting
                     that a cost analysis had been conducted. After we completed our field
                     work, the SAA provided us a cost analysis that addressed the $500,000.
                  •	 A subgrantee contracted to procure a microwave link expansion for
                     $321,000. The sole source procurement was approved; however, a cost
                     analysis was not conducted.
                  •	 Another subgrantee contracted for a sole source procurement of
                     software costing $210,000. The subgrantee obtained approval; however,
                     the subgrantee could not provide evidence that a cost analysis was
                     conducted. Subsequent to our field work, the SAA provided us a cost
                     analysis that addressed the $210,000.
                  •	 A UASI subrecipient contracted for sole source procurement of
                     communication equipment totaling approximately $820,000. The
                     procurement was approved without a cost analysis being performed.



www.oig.dhs.gov                                 11                               	     OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           The Grant Management Office Administrator stated that once the procurement
           was approved the decision was not reviewed by the Grant Management Office.
           Subgrantees were unaware of the requirement that a cost analysis was required
           by the CFR. In November 2012, the Grant Management Office finalized a
           Homeland Security Grant Procedures manual which states that all sole source
           procurements must comply with Federal requirements.

           These sole source procurements should not have been made without a cost
           analyses as required by the CFR. As a result, the State did not have assurance
           that the costs were justified or whether the contracts could have been awarded
           to an equally competent contractor at a lesser cost. Accordingly, we consider the
           $1,551,000 claimed for sole source procurements made without the required
           cost analyses to be questioned costs.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Office of the Adjutant General, Grant Management Office to:

           Recommendation #5:

           Establish and implement policies and procedures to ensure compliance with
           Federal and State regulations for sole source procurements.

           Recommendation #6:

           Ensure that cost analyses are performed in accordance with Federal regulations
           when sole source procurements are justified.

           Recommendation #7

           Conduct the required cost analysis for all sole source procurements made under
           the FY 2009 through FY 2011 SHSP and UASI awards, and disallow and recover
           any unreasonable amounts.

           Management Comments and Auditors’ Analysis

           FEMA and State Responses to Recommendation 5: FEMA concurred with the
           recommendation. FEMA stated it will work with the State to ensure adequate
           policies are in effect for sole source and other types of procurements that
           ensures compliance with applicable Federal and State regulations in situations

www.oig.dhs.gov                               12                                       OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           where grant funds are used to acquire or purchase goods and services. The State
           concurred with the recommendation.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 5. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           FEMA and State Responses to Recommendation 6: FEMA concurred with the
           recommendation and stated it will require the State to include cost analysis
           reviews consistent with CFR Title 44 § 13.36 in the Procurement policies and
           procedures they develop. The State concurred with the recommendation.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 6. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           FEMA and State Responses to Recommendation 7: FEMA concurred with the
           recommendation. FEMA stated that it will provide the State an opportunity to
           submit an explanation of why, under the pertinent facts and the applicable legal
           authority, it disagrees with OIG’s recommendation including why any debt
           amount referenced is not owed and unpaid in the amount specified. The grantee
           will be instructed to include this as part of its Corrective Action Plan Update to
           FEMA within 90 days of receipt of the grantee notification memo and to also
           include any and all supporting evidence. The grantee will be advised that it can
           refer to any previously submitted evidence in lieu of resubmitting such evidence.
           This submission must be made in a timely manner to the grantee’s Grant
           Programs Directorate Program Analyst. The State concurred with the
           recommendation and provided a cost analysis for two of the examples in the
           finding in support of the price of the procurements. However, because the
           subgrantees could not provide the requested cost analysis during the course of
           the audit fieldwork, FEMA will need to verify the validity of the cost analyses.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 7. The recommendation is resolved and will remain
           open until the corrective actions are fully implemented.

           Personnel Time Charges

           Personnel time charges for SHSP and UASI funds were not supported by activity
           reports or time sheets. As a result, there was no assurance that the time charged


www.oig.dhs.gov                                13                                       OIG-14-25
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           was spent on allowable grant activities. Accordingly, the $857,209 in personnel
           costs charged to the FYs 2009 and 2010 SHSP and UASI grants are questioned.

           CFR Title 2 § 225, Cost Principles for State, Local, and Indian Tribal Governments,
           requires that when employees work on multiple activities or cost objectives, a
           distribution of their salaries or wages be supported by personnel activity reports
           or time sheets. Personnel activity reports must reflect an after-the-fact
           distribution of the actual activity, must account for the total activity for each
           employee, must be prepared at least monthly, and must be signed by the
           employee.

           Although the State of Hawaii required State employees to report hours worked
           on a bi-weekly basis, the individual time sheets did not identify the specific
           activity (grant or other activity) that was worked on during the reporting period.
           OMB A-133 audits of the State of Hawaii for 2010 and 2011 and Kauai County for
           2012 reported this as a recurring problem. FEMA’s on-site monitoring visits also
           identified the State’s time reporting system as not being in compliance with
           Federal requirements. Our follow-up audit work verified that the State of
           Hawaii’s time reporting problem had continued without corrective action. This
           problem existed with State Civil Defense, City and County of Honolulu, and Kauai
           County in the FY 2009 and 2010 grants. These were the only subgrantees
           charging salaries to the grant. There were no personnel charges to the FY 2011
           grant at the time of our audit.

           Standard operating procedures to ensure that personnel activity costs were
           claimed in accordance with Federal requirements did not exist during FYs 2009,
           2010, and 2011. The State and other government entities did not require
           individual staff to prepare timesheets identifying the time spent on each grant.

           On November 1, 2012, the Grant Management Office Administrator issued a
           procedural manual that addressed the documentation requirements for time
           reporting. The manual reinforced the need for compliance in time reporting.
           However, subgrantee monitoring will be necessary to ensure that compliance is
           being achieved.

           Without documentation indicating which grant activities employees worked on,
           there was no assurance that the time spent by employees was actually expended
           to further the purposes of the awarded SHSP and UASI grants. Accordingly, the
           personnel costs of $857,209 are considered questionable costs.



www.oig.dhs.gov                                14                                        OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Office of the Adjutant General, Grant Management Office to:

           Recommendation #8:

           Implement procedures in accordance with the November 2012 policies and
           procedures manual to ensure compliance with Federal time reporting
           requirements for personnel costs by activity reports or by a substitute system
           that identifies time expended on Federal awards by grant.

           Recommendation #9:

           Verify that the unsupported personnel costs claimed against FYs 2009 through
           2011 HSGP grant awards were expended on activities identifiable to the
           individual grants by providing documentation that adequately supports the
           $857,209 questioned as valid charges, or recover the amount not supported and
           return to FEMA.

           Management Comments and Auditors’ Analysis

           FEMA and State Responses to Recommendation 8: FEMA concurred with the
           recommendation. FEMA will require the State to develop policies and
           procedures that accurately record time worked by personnel on allowable
           activities paid for by grant funds. The State concurred with the recommendation.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 8. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           FEMA and State Responses to Recommendation 9: FEMA concurred with the
           recommendation. Based on initial analysis of the questioned cost identified in
           this recommendation, FEMA stated that it will initiate its Debt Collection process
           (FEMA Directive 116.1, “Submission of Debt to the FEMA Finance Center”) to
           determine if the questioned cost identified is allowable, or is disallowed, and
           therefore will be recouped. The State of Hawaii agreed with the finding and
           recommendations but did not agree with the amount questioned.

           The State provided time certifications totaling $856,493 in response to the draft
           report. However, these time certifications were not fully responsive to our

www.oig.dhs.gov                                15                                       OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           finding. Most of the certifications provided were prepared after the fact and
           dated September 23, 2013 for time spent in 2010, 2011, 2012. Also, the total of
           the personnel costs charged to the SHSP awards differed from the total amount
           of $857,209 provided to us by the State at the start of the audit. Although the
           total amounts differed by only $716, amounts for individuals varied greatly. For
           example, on the listing provided at the start of the audit one employee charged
           $165,757.98; however, the certifications provided after the field work, showed
           $159,825.26 for the same individual. Another individual was shown as charging
           $89,890.96 on the original listing but only $70,770.94 on the listing provided
           after the field work. All the other individuals, except for one, also differed
           between the two listings.

           Because these certifications were prepared mostly after the fact and the amount
           of personnel charges differed between the listings for almost all the individuals,
           we have not accepted the personnel costs claimed. Accordingly, we recommend
           that FEMA evaluate the work performed by and cost associated with these
           individuals to ensure that these costs benefited the SHSP and UASI awards, and
           were valid charges, as appropriate.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 9. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           Subgrantee Monitoring

           The Grant Management Office did not adequately monitor subgrantee activities
           for the FYs 2009, 2010, and 2011 HSGP awards. The subgrantee monitoring
           conducted by the Grant Management Office was sporadic at best. Also, the
           Grant Management Office did not ensure that monitoring reports were
           prepared, or if prepared, were distributed to the subgrantees. Furthermore, the
           Grant Management Office did not have written procedures for subgrantee
           monitoring for the period of our audit scope. As a result of the limited
           monitoring, the Grant Management Office did not have assurances that the
           subgrantees were in compliance with FEMA grant requirements or that the
           subgrantees were efficiently and effectively using SHSP and UASI grant funds to
           accomplish program objectives.

           CFR Title 44 § 13.40, Monitoring and reporting program performance, establishes
           requirements for monitoring grant program performance. The regulations
           require grantees to (1) provide day-to-day management of all grants and
           subgrant supported activities and (2) assure that subgrantees comply with

www.oig.dhs.gov                                16                                       OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           applicable Federal requirements and achieve program performance goals. The
           regulations also specify that the grantees’ monitoring programs must cover each
           program, function, or activity, and require subgrantees to adhere to the same
           performance monitoring and reporting standards as required of grantees.

           In addition, Office of Management and Budget Circular A-133, Part 3-M includes
           grantee monitoring requirements. Part 3-M states that grantees are responsible
           for monitoring subgrantees’ use of Federal awards through reporting, site visits,
           regular contact, or other means to provide reasonable assurance that the
           subgrantee administers Federal awards in compliance with laws, regulations, and
           the provisions of contracts or grant agreements; and performance goals are
           achieved.

           As early as 2008, FEMA reported that the State of Hawaii had made insufficient
           subgrantee monitoring progress and that it did not have sufficient staff to
           perform this requirement. As a result, FEMA said that the State continued to be
           in noncompliance with FEMA guidance and CFR Title 44. FEMA informed the
           State that their subgrantee monitoring must cover each program, function, and
           activity. However, the situation had not improved in 2011 and 2012. In May
           2011, FEMA reported that an insufficient asset tracking system existed for the
           UASI funded equipment by the City and County of Honolulu. In addition, FEMA
           said that the UASI was unable to provide documented evidence of an active
           subrecipient monitoring process.

           A June 2012 FEMA headquarters and Region IX combined site visit disclosed that
           the Grant Management Office did not have a subgrantee monitoring plan. The
           Grant Management Office developed a State subgrantee monitoring plan in
           October 2012, which they provided to us during the audit field work. However,
           there was no evidence provided to support that the State actually monitored any
           of the subgrantees. In response to the combined visit, the Grant Management
           Office sent a corrective action plan to FEMA Region IX in September 2012 that
           included a schedule of subrecipient monitoring visits scheduled to begin in
           November 2012. The schedule included visits to 4 of the 18 subgrantees over an
           8-month period. The Grant Management Office Administrator acknowledged to
           us that the Office was not doing a very good job.

           After the State was notified of our impending OIG audit in November 2012, the
           Grant Management Office Administrator and a staff member visited three of the
           four counties. Two visits were for preparation of the State Preparedness Report
           and one visit was to discuss preparation for the audit. However, there was only
           one monitoring site visit report for one of the three counties reported as visited.

www.oig.dhs.gov                                17                                        OIG-14-25

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



           On-site visits are valuable oversight tools. The Grant Management Office’s
           periodic contacts with subgrantee staff, the review of subgrantee grant
           applications, and processing of reimbursement requests were not sufficient to:

                  •	 Observe local administrative practices,
                  •	 Evaluate whether grant funds were being used effectively and efficiently,
                  •	 Determine whether subgrantees were complying with all grant 

                     requirements and associated Federal regulations, and 

                  •	 Assess subgrantee progress in meeting preparedness goals and 

                     objectives. 


           The Grant Management Office took a step in the right direction and drafted
           subgrantee monitoring procedures in October 2012 to ensure that subgrantee
           program performance policies and procedures were being achieved. These
           procedures discussed files to review and the process for on-site visits. The
           procedures stated that the majority of monitoring would be done through
           quarterly desk file reviews and phone and email contacts with subgrantees.
           However, the procedures did not contain criteria, or methodologies for assessing
           accomplishment of program objectives.

           The Grant Management Office also developed a grant monitoring form that
           contained questions regarding 12 areas such as equipment, personnel, and
           travel/vehicle mileage, plus a form to record meetings or telephone
           conversations with subgrantees. The Grant Management Office could enhance
           the effectiveness of its subgrantee monitoring by following its newly established
           subgrantee monitoring procedures.

           Other weaknesses have contributed to poor subgrantee monitoring. FEMA
           identified in 2008 that the State of Hawaii did not have sufficient staff to perform
           the subgrantee monitoring requirement. Because of the geographic dispersion of
           the Hawaiian Islands, travel to subgrantee locations is time-consuming. In
           addition, at the time of our audit, the Grant Management Office had three staff
           members who were responsible for administering the entire HSGP grant
           program. The staff’s duties also included administering Port Security Grant
           Program grants, Emergency Management Performance Grant Program grants,
           and other grants. Another contributing factor to the inadequate monitoring of
           subgrantees was not having written subgrantee monitoring procedures until
           October 2012.



www.oig.dhs.gov                                  18                                	     OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           In the absence of on-site visits, the Grant Management Office was not fully
           aware of the extent that subgrantees adhered to Federal requirements and grant
           guidelines or achieved DHS and State of Hawaii programmatic goals and
           objectives. The Grant Management Office Administrator said that a review of
           subgrantee performance information is done using internal weekly reports.
           However, the weekly reports included financial information rather than
           performance information, and therefore no one was conducting a program
           performance review. The incomplete implementation of an effective periodic,
           on-site, subgrantee monitoring program prevented the State from obtaining
           first-hand knowledge of specific subgrantee administrative problems and issues.

           Without subgrantee monitoring, the Grant Management Office did not have the
           assurance that its subgrantees were adhering to FEMA’s grant program guidance
           or were in compliance with asset and equipment tracking as required by CFR
           Title 44 for grant funded equipment purchases. Moreover, the Grant
           Management Office did not have adequate information to assess whether or not
           the subgrantees were efficiently and effectively using HSGP grant funds to
           accomplish program objectives. In addition, the Grant Management Office could
           not adequately determine if the State’s UASI was performing subgrantee
           monitoring and asset tracking of UASI funded equipment purchases.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Office of the Adjutant General, Grant Management Office to:

           Recommendation #10:

           Implement the subgrantee monitoring procedures developed in October 2012.

           Recommendation #11:

           Develop and comply with a schedule for monitoring subgrantees using the
           subgrantee monitoring procedures.

           Management Comments and Auditors’ Analysis

           FEMA and State Responses to Recommendation 10: FEMA concurred with the
           recommendation. FEMA stated it will require the State to comply with the
           prescribed monitoring protocols it developed in 2012, and use these protocols in
           monitoring subgrantees. The State concurred with the recommendation and said

www.oig.dhs.gov                               19                                      OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           that a new sub-monitoring schedule is being coordinated, to be completed by
           December 31, 2013.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 10. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           FEMA and State Responses to Recommendation 11: FEMA concurred with the
           recommendation. FEMA said it will require the State to include a monitoring
           schedule as part of their policies and procedures for subgrantee monitoring. The
           State concurred with the recommendation and stated that the Grant
           Management Office continually collaborates with all subgrantees and that the
           primary issue is documenting the monitoring processes conducted by the office.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 11. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           Property Management and Accountability

           The Grant Management Office did not ensure that property acquired with SHSP
           funds was safeguarded and identified as being purchased with SHSP funds. The
           Grant Management Office also did not ensure compliance with property
           management accountability requirements or that the required 2-year inventory
           reconciliations were being conducted. In addition, the Grant Management Office
           did not conduct sufficient monitoring activities with subgrantees to ensure that
           required physical inventories were being performed at least once every two
           years. A Grant Management Office official told us that property management
           control requirements were provided as a part of the accompanying subgrantee
           award documentation. However, a review of the Memorandums of
           Understanding between the State and a sample of three subgrantees disclosed
           that there were no property management control requirements that
           accompanied the subgrant award for FY 2009. The property control
           requirements were included in the FYs 2010 and 2011 grant awards to the
           subgrantees.

           CFR Title 44 §13.3, Definitions, defines equipment as tangible, non-expendable,
           personal property having a useful life of more than 1 year and an acquisition cost
           of $5,000 or more per unit. Computer software is also an equipment item
           contained in the DHS Authorized Equipment List. CFR Title 44 §13.3 also defines
           supplies as all tangible personal property other than equipment.

www.oig.dhs.gov                                20                                       OIG-14-25

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           CFR Title 44 §13.32(d), Management requirements, establishes procedures for
           managing equipment (including replacement equipment), whether acquired in
           whole or in part with grant funds, and includes the following minimum
           requirements:

                  •	 Maintain property records that include a description of the property, a
                     serial number or other identification number, the source of property,
                     who holds title, the acquisition date, the cost of the property, percentage
                     of Federal participation in the cost of the property, the location, use and
                     condition of the property, and any ultimate disposition data including the
                     date of disposal and sale price of the property.
                  •	 Maintain a physical inventory of the property and the results reconciled
                     with the property records at least once every two years.
                  •	 Establish and maintain a control system to ensure adequate safeguards
                     to prevent loss, damage, or theft of the property. Any loss, damage, or
                     theft shall be investigated.
                  •	 Perform adequate maintenance procedures to keep the property in good
                     condition.

           In addition, CFR Title 44 §13.20, Standards for financial management systems,
           requires that effective control and accountability be maintained for all personal
           property procured with Federal funds. Sensitive equipment that is portable such
           as laptop computers and handheld radios should be safeguarded even though
           the cost of the equipment might be less than $5,000.

           Two of the 19 subgrantees visited did not purchase equipment, and only one of
           the remaining 17 subgrantees had property management records that complied
           with the Federal property management requirements found in CFR Title 44
           §13.32(d)(1). Property records were not provided by five subgrantees and
           another two had equipment that had not been entered into the property
           records. The 10 remaining subgrantees visited had various shortcomings. Table 2
           shows examples of the shortcomings observed for these 10:




www.oig.dhs.gov                                   21                                 	     OIG-14-25

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Table 2. Examples of Property Records Observed Shortcomings 

             Number of Subgrantees                      Description of Shortcomings
                        5               Did not identify the acquisition date
                        2               Did not identify the location of the equipment
                        4               Did not identify equipment cost
                        3               Did not identify equipment serial numbers
                        2               Did not include identification numbers
                        3               Did not identify title holder
           Source: Subgrantee Property Records

           Because of unwritten property management policies and procedures and
           insufficient monitoring, subgrantees and subrecipients did not perform the
           required inventories and did not maintain appropriate records identifying
           equipment items procured with Federal funds. Also, the Grant Management
           Office did not follow up with the subgrantees and subrecipients to verify that
           assets were properly recorded and protected. According to the Grant
           Management Office Administrator, inadequate staffing and funding contributed
           to the noncompliance with Federal property management requirements.

           The Grant Management Office did not have documented policies and procedures
           for the day-to-day management of FEMA grants. In addition, subgrantee
           monitoring procedures were not developed until October 2012. As a result, the
           Grant Management Office did not have reasonable assurance that property
           purchased with Federal grant funds was being adequately safeguarded to
           prevent loss, damage, or theft.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Office of the Adjutant General, Grant Management Office to:

           Recommendation #12:

           Evaluate the effectiveness of the November 2012 policies and procedures
           manual and the October 2012 subgrantee monitoring manual regarding property
           management, and revise as necessary.

           Recommendation #13:

           Monitor subgrantee compliance with property management requirements.


www.oig.dhs.gov                                  22                                      OIG-14-25

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #14:

           Direct subgrantees to establish and maintain property management records in
           accordance with Federal requirements, conduct the required 2-year inventory
           inspections, and reconcile the results to the property records.

           Management Comments and Auditors’ Analysis

           FEMA and State Responses to Recommendation 12: FEMA concurred with the
           recommendation. FEMA said it will review the 2012 policies and procedures
           manual to ensure it adequately supports the implementation of a
           comprehensive monitoring program. The State concurred with the
           recommendation and stated that 100 percent of the inventory will be completed
           by September 2014.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 12. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           FEMA and State Responses to Recommendation 13: FEMA concurred with the
           recommendation. FEMA stated it will ensure that the State develops policies and
           procedures consistent with the requirements CFR Title 44 § 13.32 to monitor
           subgrantee property records accurately and in a timely manner. The State
           concurred with the recommendation and said that what had been lacking was
           control over the identification of equipment as required in the procedural
           manual.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 13. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           FEMA and State Responses to Recommendation 14: FEMA concurred with the
           recommendation. FEMA said it will require the State to institute a subgrantee
           property records management and verification process to reconcile and
           document property records that is consistent with the requirements CFR Title 44
           § 13.32. The State concurred with the recommendation and said it was working
           to standardize the inventory records and upgrade the Grants Management
           System with inventory information.




www.oig.dhs.gov                              23                                      OIG-14-25

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 14. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           Obligations to Subgrantees

           The Grant Management Office did not obligate 80 percent of the SHSP funds to
           local units of government as required by Federal requirements. Funds in excess
           of the allowable 20 percent were retained by the Grant Management Office, but
           the required approvals from the subgrantees were not obtained. In addition, the
           Grant Management Office did not have documentation supporting how the
           $3,275,509 retained benefited subgrantees. As a result, the Grant Management
           Office did not comply with the requirement that 80 percent of the FEMA awards
           be obligated to the subgrantees or that written approval from the subgrantees
           be obtained for funds retained. Accordingly, the $3,275,509 is a questioned cost
           which should be returned to FEMA or provided to Hawaii subgrantees.

           According to FEMA Homeland Security Grant Program Guidance for 2009
           through 2011, State Administrative Agencies must obligate and make available
           to local government units at least 80 percent of SHSP and UASI grant funds
           within 45 days of FEMA’s award date. The Guidance states that local
           governments have an important role in protecting the American people from
           terrorist threats. The obligation must include the following requirements:

                  •	 There must be some action to establish a firm commitment on the part of
                     the awarding entity,
                  •	 The action must be unconditional on the part of the awarding entity (i.e.,
                     no contingencies for availability of funds, and all special conditions
                     prohibiting obligation, expenditure, and drawdown must be removed),
                  •	 There must be documentary evidence of the commitment, and
                  •	 The award terms must be communicated to the official grantee.

           The FEMA Guidance also says that the State my retain some of the allocation of
           grant funds for expenditures made by the State on behalf of the local unit of
           government or Urban Area jurisdiction. This may occur only with the written
           consent of the local unit of government or Urban Area jurisdiction, with the
           written consent specifying the amount of funds to be retained and the intended
           use of funds. If a written consent agreement is already in place from previous
           fiscal years, FEMA would continue to recognize it.



www.oig.dhs.gov                                  24                                	      OIG-14-25

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           The obligation of SHSP funds to local governments and to other subgrantees by
           Hawaii was done through a Memorandum of Agreement to the local official
           responsible for administering the grant funds. The Memoranda of Agreement
           were fully executed by the Grant Management Office and the local officials
           within the 45 day requirement. However, the total obligated to all subgrantees
           did not equal 80 percent of FEMA’s SHSP award. Table 3 shows the SHSP amount
           awarded by FEMA and the total obligation amounts to subgrantees for FYs 2009,
           2010, and 2011.

           Table 3. Hawaii Obligations of SHSP Awards to Subgrantees.
             Fiscal        SHSP        80 percent   Obligated to      Amount           Percent
              Year        Award         of Award    Subgrantees       Retained        Obligated
              2009      $6,524,500      $5,219,600     $4,164,174     $1,055,426        63.8%
              2010      $6,613,200      $5,290,560     $3,626,032     $1,664,528        54.8%
              2011      $5,137,205      $4,109,764     $3,554,209       $555,555        69.2%
              Total    $18,274,905 $14,619,924       $11,344,415      $3,275,509
           Source: Grant award documentation from FEMA and Grant Management Office Memoranda of
           Agreements with subgrantees

           The State of Hawaii also received UASI grants for 2009 and 2010 for the Honolulu
           urban area. The total for these two awards was $9,509,600. All UASI awards for
           FYs 2009 and 2010 were obligated to the urban area.

           The Grant Management Office Administrator said that SHSP funds were retained
           for training purposes and for use in the event that there was an increased threat
           level. However, the Memorandum of Agreement for each subgrantee did not
           specify the amount of funds retained, what the funds would be used for, or
           whether the subgrantee approved of the retention of funds. Copies of
           subgrantee consent letters were requested from the Grant Management Office,
           but were not provided. As shown in table 3, the amount retained by the Grant
           Management Office totaled $3,275,509 for the FYs 2009 through 2011 grants.
           The Grant Management Office could not provide documentation supporting that
           the $3,275,509 was expended for the benefit of subgrantees. Therefore, we
           concluded that the required written consents were not obtained from the local
           governments.

           The Grant Management Office Administrator said that agreements existed
           between the Grant Management Office and the subgrantees concerning the
           retention of funds. However, documentation supporting the agreements
           (written consents) was not provided. The absence of written consents from local
           governments specifying the amount of funds to be retained and the intended

www.oig.dhs.gov                                 25                                          OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           use of funds indicate that the Grant Management Office did not fully understand
           the requirements.

           Because the State did not obligate at least 80 percent of SHSP funds within 45
           days, local governments and first responders were not provided Federal funding
           in a timely manner to help State, territory, and local agencies enhance
           capabilities to prevent, protect against, respond to, and recover from terrorist
           attacks, major disasters, and other emergencies. In addition, because the Grant
           Management Office could not provide documentation that supported that each
           subgrantee consented to the withholding and that the withheld funds were used
           for the benefit of the subgrantees, the $3,275,509 is considered a questioned
           cost and should either be returned to FEMA or provided to the subgrantees.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Office of the Adjutant General, Grant Management Office to:

           Recommendation #15:

           Develop and implement procedures to ensure compliance with the SHSP grant
           requirements concerning written consent from subgrantees when funds are
           retained by the State.

           Recommendation #16:

           Determine what the retained funds of $3,275,509 were used for and evaluate if
           the funding and expenditures were for the benefit of each respective
           subgrantee.

           Recommendation #17:

           If the funds that were retained were not used for the benefit of the subgrantees,
           the funds from expired grants should be returned to FEMA and the unexpired
           grant funds should be awarded to the appropriate subgrantees for their use.

           Management Comments and Auditors’ Analysis

           FEMA and State Responses to Recommendation 15: FEMA concurred with the
           recommendation. FEMA will ensure that the State implements and follows a
           memorandum of agreement process for obtaining subgrantee approval if and

www.oig.dhs.gov                               26                                       OIG-14-25

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           when the State retains SHSP funding on behalf of a local jurisdiction or
           subgrantees. The State did not concur with the recommendation and stated that
           distribution of funds was discussed with County Mayors prior to the distribution
           of the memorandums of agreements.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 15. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           FEMA and State Responses to Recommendation 16: FEMA concurred with the
           recommendation. Based on initial analysis of the questioned costs identified in
           this recommendation FEMA will initiate its Debt Collection process (FEMA
           Directive 116-I, “Submission of Debt to the FEMA Finance Center”) to determine
           if the questioned cost identified is allowable, or is disallowed, and therefore will
           be recouped. The State did not concur with the recommendation and stated that
           grant adjustment notices were sent to counties (subrecipients), identifying the
           state contributions to each jurisdiction, and that new memorandums of
           agreement have the distribution of funding clearly identified.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 16. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           FEMA and State Responses to Recommendation 17: FEMA concurred with the
           recommendation. FEMA stated it will provide the State an opportunity to submit
           an explanation of why, under the pertinent facts and the applicable legal
           authority, it disagrees with OIG’s recommendation including why any debt
           amount referenced is not owing and unpaid in the amount specified. The
           grantee will be instructed to submit this along with any and all supporting
           evidence as part of its Corrective Action Plan Update to FEMA within 90 days of
           receipt of the grantee notification memo.

           The State of Hawaii did not agree with the finding. Although the State said it
           provided documentation to us, the State did not provide documentation that
           adequately documented that 80 percent of the funding was either used for or
           provided to the local governments as required.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 17. The recommendation is resolved and will remain
           open until the corrective actions are fully implemented.


www.oig.dhs.gov                                 27                                        OIG-14-25

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Timeliness of Expenditures


           The State did not take advantage of FEMA’s Guidance to State Administrative
           Agencies to Expedite the Expenditure of Certain DHS / FEMA Grant Funding,
           dated February 13, 2012, to accelerate the use of grant funds. Consequently, the
           State or its subgrantees could lose the opportunity to enhance their capabilities
           to prevent, protect against, respond to, and recover from terrorist attacks, major
           disasters, and other emergencies.

           FEMA Guidance to State Administrative Agencies to Expedite the Expenditure of
           Certain DHS/FEMA Grant Funding, dated February 13, 2012, stated that during
           the last ten years Federal investments in State and local preparedness
           capabilities have developed significant national capacity to prevent, protect
           against, prepare for, respond to, and recover from disasters of all kinds.
           Recognizing this, FEMA has undertaken initiatives to ensure that funds are made
           available for use quickly and efficiently. The Guidance further stated that
           DHS/FEMA will implement a number of measures that provide grantees with
           additional flexibility to accelerate the spending of remaining FY 2007-2011
           DHS/FEMA grant funds (including formula grant programs), consistent with
           existing laws, regulations, and programmatic objectives.

           While DHS/FEMA provided opportunities for the State to accelerate the use of
           SHSP grant funds awarded during FYs 2009 through 2011, the State did not take
           advantage of this opportunity to expend funds in a timely manner to further
           enhance their capabilities to prevent, protect against, prepare for, respond to,
           and recover from disasters of all kinds.

           To illustrate, table 4 shows the amount awarded, expenditures, and percentage
           of funds unspent for Hawaii’s SHSP and UASI funds for each of the three grant
           years included in our audit through December 2012.

           Table 4. FY 2009 - 2011 SHSP/UASI Expenditures as of December 31, 2012
                          Period of                 Expenditures                 Percent
             Grant                       Amount                     Unspent
                        Performance                     as of                    Unspent
              Year                      Awarded                     12/31/12
                          End Date                    12/31/12                  12/31/12
              2009        12/31/12     $11,279,300 $10,447,897       $831,403      7.4%
              2010        09/30/13       $11,368,000     $4,789,362    $6,578,638   57.9%
              2011        08/31/14       $5,137,205        $167,583    $4,969,622   96.7%
           Source: The State’s December 31, 2012 expenditure reports



www.oig.dhs.gov                                    28                                       OIG-14-25
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           For the FY 2009 award, the 90-day period for expenditures expired at the end of
           March 2013. According to the Grant Administrator, all of the FY 2009 funds were
           expended.

           A comparison of the rate of expenditures for 2010 and 2011 showed that the
           State continued to ignore the flexibilities that DHS/FEMA allowed in its
           February 13, 2012 guidance. The State had been managing the FY 2010 funds for
           27 months prior to December 31, 2012 and had only expended 42 percent of the
           funds awarded. With the period of performance ending on September 30, 2013,
           the State only had 9 months to expend the remaining 58 percent. For the FY
           2011 award, the State had only expended 3.3 percent in 15 months and must
           expend the remaining 96.7 percent in 20 months.

           This issue will become more of a problem for the FY 2012 award because that
           award only has a 24 month Period of Performance instead of 36 months.
           According to FEMA Information Bulletin 379, States and Territories will need to
           provide more information than in the past in order to obtain FEMA approval for
           extensions to Periods of Performance.

           This issue is particularly acute in Hawaii County. County officials advised us that
           no expenditures for 2011 had been made as of January 10, 2013, and very little
           was expended of the 2010 funds. The status of FYs 2009, 2010, and 2011 funds
           awarded to Hawaii County as of January 10, 2013 is shown in table 5.

           Table 5. FYs 2009 – 2011 SHSP Hawaii County Grants Expenditures as of
           January 10, 2013
             Fiscal Year         Award Amount         Expenditures       Percent Not Spent
                  2009             $970,807               $526,452                   45.8%
                  2010             $906,508                  $9,745                  98.9%
                  2011             $575,075                      $0                100%
           Source: FEMA award documents and Grant Management Office Expenditure Reports

           The Grant Management Office Administrator identified constraints that the
           subgrantees face due to requirements at the local level. State agencies must
           receive authorization and approval from the Governor to expend funds. State
           agency officials with whom we met said that this approval process was very time
           consuming. The Grant Management Office Administrator said that county
           subgrantees also had their own approval process that was time consuming. The
           Grant Management Office Administrator also said that Hawaii County’s prior
           administrator wanted 2008 and 2009 grants closed prior to spending 2011 and

www.oig.dhs.gov                                  29                                          OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           2012 grants, which caused a delay in expending the funds. Hawaii County’s new
           administrator wanted to move forward with FYs 2011 and 2012 grants.

           Delays in expenditures of grant funds can impede State and subgrantees’
           opportunities to enhance the most critical preparedness and response
           capabilities. Delays may also result in reallocating funds to lesser priorities to
           ensure funding does not expire. Such delays have led to extensions in the grant
           performance time period and delays in officially closing the grant. Starting in
           FY 2012, FEMA will require more justification prior to granting Period of
           Performance extensions. Accounting and reporting requirements also continue
           as long as the grant remains open, which adds to the administrative costs for the
           grant and burdens both staff and tracking systems.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Office of the Adjutant General, Grant Management Office to:

           Recommendation #18:

           Develop and implement procedures, with appropriate controls (such as enforced
           deadlines), to ensure that grant funds are expended in a timely manner.

           Management Comments and Auditors’ Analysis

           FEMA and State Responses to Recommendation 18: FEMA concurred with the
           recommendation. FEMA will work with the State to ensure that subawards are
           executed within the required time frame, and that they include appropriate
           control mechanisms to protect against improper use of the funds. The State also
           concurred with the recommendation and stated that corrective action was
           ongoing.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 18. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           Expenditure Documentation

           Expenditures recorded in the Grant Management System were not always
           accurately recorded or adequately supported by invoices and related records. In
           addition, some expenditures were not recorded in a timely manner. As a result,

www.oig.dhs.gov                                30                                       OIG-14-25
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           the amounts charged to the respective SHSP and UASI awards could not be
           certified as being accurate or complete.

           CFR Title 44 § 13.20, Standards for financial management systems, requires that
           a State expend and account for grant funds in accordance with State laws and
           procedures for expending and accounting for its own funds. Fiscal control and
           accounting procedures of the State, as well as its subgrantees and cost-type
           contractors, must be sufficient to permit preparation of reports required by this
           part and the statutes authorizing the grant. These controls and procedures must
           also permit the tracing of funds to a level of expenditures adequate to establish
           that such funds have not been used in violation of the restrictions and
           prohibitions of applicable statutes. Grantees and subgrantees must maintain
           records which adequately identify the source and application of funds provided
           for financially-assisted activities. These records must contain information
           pertaining to grant or subgrant including outlays or expenditures.

           CFR Title 44 §13.42, Retention and access requirements for records, requires that
           grantees maintain all financial and programmatic records, supporting
           documents, statistical records, and other records which are required to be
           maintained by program regulations or the grant agreement, or otherwise
           reasonably considered as pertinent to program regulations or the grant
           agreement. Records must be retained for 3 years from the day the grantee or
           subgrantee submits to the awarding agency its last expenditure report for that
           period.

           According to the Grant Management Office, the main purpose of its Grant
           Management System was to accurately and efficiently retain homeland security
           information such as grant award information, subgrantee expenditures
           (reimbursements, advances, and purchases), and cash warrants. The Grant
           Management Office staff used the Grant Management System on a daily basis to
           enter and extract grant information. This system was also used to assist
           subgrantees, auditors, financial offices, and DHS. All homeland security
           expenditures (e.g., reimbursements and purchases) from subgrantees were
           entered into the Grant Management System’s transaction record. The data
           entered included: subgrantee identification, purchase order number, date, grant
           program (e.g., Homeland Security), attachments, quantity, description, invoice
           number, distribution type (80 percent/20 percent split), compliance codes,
           strategy reference number, vendor, and amount.

           The Grant Management System was developed to reduce the need to use
           multiple systems, providing a “one stop” shop for homeland security grant

www.oig.dhs.gov                                31                                       OIG-14-25

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           related information. The System allowed the Grant Management Office staff to
           assist subgrantees regarding such items as payment status, purchase order
           reference, expenditures and balances, and reconciliation. The System’s records
           were “linked” to electronically scan documents, to make it easier to find the
           source documentation. The System allowed users to extract and create a wide
           range of reports.

           We tested transactions to determine if the related expenditures were accurately
           recorded, appropriately supported, and timely recorded in the Grant
           Management System. The tests identified expenditures that were not accurate,
           not supported by invoices and related documents, or not recorded in a timely
           manner. For example:

                  •	 SHSP expenditures for a radio system totaling $752, 663 were not
                     adequately supported by invoice documentation for the expenditure
                     amounts. The Grant Management Office Administrator said that funds
                     from two grants, SHSP and Public Safety Interoperable Communications
                     Grant Program, were used to pay for the radio system; but the
                     expenditures were not separately tracked to show how much was to be
                     expended from each grant. Instead, the funding was tracked by the
                     overall contract amount funded by both grants. Because two grants were
                     used and the amounts used from each grant were not identified, we were
                     not able to verify the accuracy of the expenditure amounts that were
                     approved from each grant.

                  •	 An expenditure totaling $216,304 for a Buffer Zone Protection Plan for
                     Hawaii’s Critical Infrastructure Systems was missing adequate supporting
                     documentation. The expenditure recorded in the Grant Management
                     System showed $200,000 expended from the FY 2009 SHSP grant. The
                     contract cover letter and the “Compensation and Payment Schedule”
                     with the vendor showed that $200,000 was to be paid from a buffer zone
                     grant and $16,304 from the SHSP grant. The Grant Management Office
                     Administrator said the contract used the State’s entire $200,000 Buffer
                     Zone Protection Plan allotment given to the State of Hawaii. However,
                     the buffer zone allotment did not cover all of the program costs, and
                     SHSP funds were used to cover the remaining amounts. Grant
                     Management Office officials could not provide documentation supporting
                     the amount allocated to the SHSP award.

                  •	 Although a FY 2010 SHSP grant expenditure of $81,895 for the purchase
                     of optic tools was recorded in the Grant Management System, the
www.oig.dhs.gov                                 32                                	     OIG-14-25

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                     amount recorded in the System did not match the amount shown on the
                     supporting documentation. The invoices supporting the expenditure
                     totaled $76,555 for the FY 2010 SHSP expenditure, not the $81,895 listed
                     in the system. In addition, our review of the procuring subgrantee’s
                     "Property and Equipment Inventory Report Form" identified the
                     expenditure as an FY 2008 grant year expenditure (not FY 2010) and also
                     showed a cost of $76,555.

                  •	 The amounts recorded in the Grant Management System for two other
                     procurements for radios did not match the supporting documentation.
                     For these two procurements, the recorded expenditures exceeded the
                     invoice amounts by $3,489. The first expenditure was recorded as $9,394
                     in the System, but the amount shown on the purchase order and invoice
                     was $7,905. The second expenditure was recorded as $2,800 in the Grant
                     Management System, but the invoice amount was $800.

                  •	 An expenditure of $115,762 for a technical assistant and project
                     management contract involved six invoices. The invoices were dated
                     from 3/4/11 through 6/28/12 and were individually paid. However, the
                     six invoices were recorded as a single expenditure on 9/14/10 in the
                     Grant Management System.

           The Grant Management Office Administrator said that personnel changes
           occurred during the period when the radio system was procured and that the
           individuals who took over were not knowledgeable of most of the actions
           related to the project. Thus, the records were not as detailed as they should
           have been. The Grant Management Office Administrator also said that detailed
           records identifying whether the SHSP or Buffer Zone grant was used to purchase
           specific items were not maintained. The expenditures were tracked by contract
           rather than by grant funding source.

           For the instances where expenditure amounts in the System did not match the
           supporting documents, the Grant Management Office initially entered the
           purchase order amounts, not the individual invoice amounts. When brought to
           the Grant Management Office’s attention during the audit, the amounts in the
           System for the two radio procurements discussed above were updated to the
           lower invoice amounts and $3,489 was returned to the SHSP 2009 grant. Grant
           Management Office staff said that for these expenditures it was a matter of
           timing in adjusting the amounts in the Grant Management System.



www.oig.dhs.gov                                 33                                	     OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           The errors in recording the $81,895 purchase of optic tools likely occurred
           because it involved complex multiple expenditure transactions involving multiple
           year SHSP grants, other agency funds, a large advancement of funds, and many
           quote, approval, and invoice documents. The $81,895 expenditure was a portion
           of an actual total expenditure of $274,746 that was divided among FYs 2008,
           2009, and 2010 expenditures. Another factor was the large number of
           supporting documents included with the quotes and invoices for this
           expenditure, and other expenditures, totaling 251 pages. Documents were not
           well organized and did not clearly identify which quotes, invoices, and approvals
           of funding related to the expenditure.

           The six invoices, totaling $115,762, were not individually recorded because it
           involved a contract, and as discussed above, the contract amount was recorded
           in the Grant Management System at that time of the contract award. However,
           there was no requirement that individual invoices must be recorded as
           expenditures when paid. The Grant Management Office Administrator said that
           they were now recording expenditures when paid.

           The State was not in compliance with Federal financial management system
           requirements as defined in CFR Title 44 § 13.42. Because expenditures recorded
           in the Grant Management System were not always accurately recorded,
           appropriately supported by invoices and related records, or recorded in a timely
           manner, the amounts charged to the respective grants could not be verified as
           being accurate, complete, or allowable. Expenditure records that are not
           accurate, timely recorded, and readily traceable to supporting purchase orders
           and invoices and other documents may lead to delays in determining funds
           status, and in misuse or loss of funds.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Office of the Adjutant General, Grant Management Office to:

           Recommendation #19:

           Complete a reconciliation of the expenditures in the Grant Management System
           to determine the accuracy and timeliness of the recordings. Funds for any
           claimed expenditures that cannot be supported should be returned to FEMA.




www.oig.dhs.gov                               34                                       OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #20:

           Develop and implement procedures to ensure that future expenditures are
           accurately recorded in a timely manner in the Grant Management System,
           properly supported with appropriate documentation, and are readily
           reconcilable to supporting invoices and other related documents.

           Management Comments and Auditors’ Analysis

           FEMA and State Responses to Recommendation 19: FEMA concurred with the
           recommendation. FEMA stated that it will provide the State an opportunity to
           submit an explanation of why, under the pertinent facts and the applicable legal
           authority, it disagrees with OIG’s recommendation including why any debt
           amount referenced is not owing and unpaid in the amount specified. The
           grantee will be instructed to submit this along with any and all supporting
           evidence as part of its Corrective Action Plan Update to FEMA within 90 days of
           receipt of the grantee notification memo. The State agreed with the
           recommendation but disagreed with the foundation for the finding.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 19. The recommendation is resolved and will remain
           open until the corrective actions are fully implemented.

           FEMA and State Responses to Recommendation 20: FEMA concurred with the
           recommendation. FEMA will work with the State to ensure it has policies and
           procedure in place to adequately reconcile accounts and the State’s Grants
           Management System. The State agreed with the recommendation and stated
           that errors that occurred during 2011 have not yet been resolved. Actions are
           being taken to improve the accuracy of the system.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 20. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           Financial Reporting Compliance

           The State Administrative Agency did not submit required Federal quarterly
           financial status reports in a timely manner for the FY 2011 grant. The reports for
           FYs 2009 and 2010 were submitted on time. Of the five financial reports required
           to be submitted for the 2011 grant, two were submitted late and one was not
           submitted. In addition, accountability was lost because the forms were not
www.oig.dhs.gov                                35                                       OIG-14-25

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           always signed by a State official. As a result, FEMA officials did not have timely
           information on the State’s financial activities in managing the 2011 grant funds.

           According to CFR Title 44 §13.41, Financial reporting, grantees are required to
           submit financial status reports within 30 days after the end of each quarter. The
           instructions for completing the reports require that the reports include the name
           and title of the authorized certifying official, and that the certifying official sign
           the reports. These reports are critical tools for FEMA to carry out its financial
           stewardship duties for the HSGP and serve as a check to determine if grantees
           are expending Federal funds in a timely manner.

           Table 6 shows the history of weaknesses with the Federal financial reporting
           requirements for the FYs 2009 through 2011 Homeland Security Grant Program
           from award date through December 31, 2012.

           Table 6. Federal Financial Reporting
                                                                 Submitted   Average    Not Signed
              HSGP        Date        Required     Submitted
                                                                  Late/Not    Days     by Certifying
              Grant      Awarded      Reports       on Time
                                                                 Submitted    Late        Official
             FY 2009     08/21/09         14           14             0         0            1
             FY 2010     09/23/10         10           10             0         0            1
             FY 2011     09/01/11         5             2             3        96            3
           Source: Federal Financial Reports for FYs 2009 through 2011

           As table 6 shows, Hawaii submitted the required financial reports for 2009 and
           2010. Two of the five required status reports for the 2011 grant were filed after
           the required 30-day period following the end of each quarter. One status report
           was not filed.

           The Grant Management Office Administrator did not know why the financial
           reports for the FY 2011 grant were filed late or why the reports were not signed
           by the certifying officials. However, the Administrator speculated that changes in
           the organizational structure, personnel changes, and changes in assigned
           responsibilities contributed to the noncompliance.

           Because the State did not file these financial reports in a timely manner, FEMA
           did not know how the grantee was using the grant funds they had received.
           FEMA officials also could not periodically monitor and track the financial
           activities of the grantee in managing the HSGP. In addition, accountability was
           lost because the forms were not always signed by the certifying official and there
           was no assurance that the reports were approved for submission to FEMA.

www.oig.dhs.gov                                      36                                        OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Office of the Adjutant General, Grant Management Office to:

           Recommendation #21:

           Establish and implement procedures to ensure that financial status reports are
           prepared, certified, and submitted in accordance with Federal requirements and
           signed by appropriate Hawaii Grant Management Office officials.

           Management Comments and Auditors’ Analysis

           FEMA and State Responses to Recommendation 21: FEMA concurred with the
           recommendation. FEMA stated it will work with the State to ensure that it
           establishes policies and procedures that ensure that financial status reports are
           submitted in a timely manner. The State agreed with the recommendation, and
           as a corrective action, provided completed signed reports for 2011.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 21. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           Equipment Usage

           The State of Hawaii used SHSP and UASI funds to procure equipment items that
           were not being used. The unused equipment included radios and generators that
           had been received between 3 and 15 months prior to our audit fieldwork in
           January 2013. As a result, the State did not benefit from the procurement of the
           equipment and the equipment may not have been needed.

           CFR Title 44 §13.32 (c) requires that equipment be used by the grantee or
           subgrantee in the program or project for which it was acquired as long as
           needed, whether or not the project or program continues to be supported by
           Federal funds. In addition, DHS Program Guidelines for FY 2009-2012 state that
           equipment purchased be used to respond to acts of terrorism and other
           catastrophic events.

           Subgrantees used SHSP and UASI grant funds to purchase equipment that had
           been received, but was still in boxes, kept in storage, and was not being used.
           Examples included:

www.oig.dhs.gov                                37                                       OIG-14-25

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                  •	 One UASI subrecipient purchased 296 radios costing approximately
                     $1.25 million with FYs 2009 and 2010 UASI grant funds. The radios were
                     received between September 2011 and October 2012, but were still in
                     boxes on shelves in a storage area waiting to be programmed (configured
                     to access the subrecipient’s system) or ready but unassigned.
                     Approximately 240 radios on the shelves were not stored in any order.
                     We could randomly pick a radio from a shelf and find it on the inventory
                     tracking system list. However, we could not select a radio from the list
                     and then find it on the shelf because the radios were not placed on the
                     shelves in any particular order. Also, the location of each radio was not
                     included on the tracking list.

                  •	 Three large generators, costing more than $475,000, were purchased and
                     delivered to a subgrantee in November 2011. These generators were
                     sitting in a warehouse at the time of our visit. The generators were tested
                     when delivered, but had not been used for any training or during any
                     exercises. The subgrantee described the three generators as the “backup
                     of the backup for a radio tower site.” A maintenance schedule for the
                     three generators did not exist at the time of our visit.

           The Grant Management Office did not have monitoring procedures or activities
           for verification that purchased equipment was needed and used by the
           subgrantees. The Grant Management Office Administrator acknowledged that
           improvements were needed to the State’s monitoring activities for subgrantees.
           In this regard, the examples observed during our audit could have been
           discovered during on-site visits by Grant Management Office officials. The
           information would have been useful for determining subgrantee needs during
           the State’s annual Investment Justification application process.

           The equipment procured, but not used, would indicate that the need for the
           equipment was questionable. In addition, because the equipment was not being
           used, the State’s first responders did not benefit from the procurements.
           Accordingly, the equipment and the approximately $1,725,000 used to procure
           the equipment may have been put to better use.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Office of the Adjutant General, Grant Management Office to:



www.oig.dhs.gov                                   38                                	      OIG-14-25

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #22:

           Establish and implement procedures to ensure that equipment procured is
           needed and ready for use as intended in a timely manner.

           Recommendation #23:

           For the unused equipment observed during the audit:
               •	 Determine if the equipment is needed;
               •	 If the equipment is needed, ensure that appropriate maintenance is
                  routinely conducted and that it is ready for use when needed;
               •	 If not needed, reassign the equipment to other subgrantees who do need
                  it; or
               •	 If not needed in Hawaii, consult with FEMA on the best use for the
                  unused equipment.

           Management Comments and Auditors’ Analysis

           FEMA and State Responses to Recommendation 22: FEMA concurred with the
           recommendation. FEMA said it will work with the State to ensure that their
           equipment purchases are needs based and available for utilization when
           procurements are made and the equipment is received. The State concurred
           with the recommendation and stated that a procedural guide was being
           developed to address maintenance and equipment use.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 22. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           FEMA and State Responses to Recommendation 23: FEMA concurred with the
           recommendation. FEMA will require the State to confirm that all grant funded
           equipment remains needed for uses that are authorized by Federal law and
           regulations. In cases where grant funded equipment is not currently being used
           for a proper purpose, or is excess or no longer needed, FEMA will require the
           State to make use of the equipment for a proper purpose or make disposition of
           the equipment as required by CFR Title 44 § 13.32. The State concurred with the
           recommendation, and stated that no equipment was deemed excess for reissue.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 23. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.
www.oig.dhs.gov                               39                               	     OIG-14-25

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Fusion Center


           The Hawaii fusion center did not have State or other sources of funding
           identified for future support of the Fusion Center Director or the Intelligence
           Analyst, other than DHS funding. These two positions were funded for one year
           by the SHSP 2011 grant award. Funds were not available from other sources and
           the operations and sustainability of the Fusion Center for the foreseeable future
           was dependent on DHS funding. In addition, a 2012 DHS assessment of national
           fusion centers concluded that Hawaii’s center was rated below average in critical
           operations and enabling capabilities as compared to other fusion centers. As a
           result of the funding uncertainty, the operations and sustainability of Hawaii’s
           Fusion Center with the capability to support national information sharing
           interests is in jeopardy.

           FEMA guidance contained in the FY 2011 Homeland Security Grant Program
           Guidance and Application Kit states that the national network of fusion centers is
           one of the Department’s highest priorities in FY 2011. Although not specifically
           noted as the Department’s “highest priority,” the FYs 2009 and 2010 FEMA
           guidance said that fusion centers were to be a “priority.” The FY 2011 guidance
           required at least one fusion center investment justification in the State’s
           application package. The guidance stated that fusion centers were to serve as
           focal points within the State for the receipt, analysis, gathering, and sharing of
           threat-related information between the Federal Government and State, local,
           Tribal, and private sector partners. Fusion centers were required to have the
           capability to support national interests of sharing information.

           According to State officials the fusion center funding evolved because of the
           requirement in the FY 2011 Homeland Security Grant Program Guidance and
           Application Kit that the State include a fusion center investment justification in
           its application package. To comply with the requirement for a fusion center
           investment justification, the application package submitted by the Grant
           Management Office for FY 2011 contained an investment of $231,000. The
           investment was to provide funding for a State Fusion Center Director and one
           Intelligence Analyst position for one year. There were no other sources of
           funding for the Fusion Center Director or the Intelligence Analyst positions and
           no discussion concerning the State’s ability to sustain the capability once the
           Director and Analyst were hired. The Grant Management Office Administrator
           told us that they were trying to get funding from other sources, including State
           funding, but the Grant Management Office Administrator said that the funding
           would be a couple of years away. The Grant Management Office Administrator
           also said that Hawaii would have to rely on funding from DHS.

www.oig.dhs.gov                                 40                                        OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           The fusion center was created as an organization focused on national interests.
           In December 2010, the Governor of Hawaii designated an existing organization,
           the Pacific Regional Intelligence Clearinghouse, as the State fusion center. The
           Clearinghouse was located in Honolulu and had been in operation for about one
           year, funded by resources from the Hawaii High Intensity Drug Trafficking Areas
           and through the cooperation of Federal law enforcement officials. Support was
           also provided by the Honolulu Police Department and Honolulu Emergency
           Services Department with prior year UASI grant funds. According to the current
           fusion center director, the other State counties (Maui, Hawaii, and Kauai) receive
           information from the fusion center but did not have staff that participated in the
           center.

           In 2012, DHS in coordination with other Federal partners conducted an
           assessment of the Hawaii’s Fusion center as part of a review of the national
           fusion center network. The 2012 assessment evaluated the progress of national
           fusion centers’ achievements in support of the national interests of sharing
           information. The capabilities supporting the sharing of information nationally
           were evaluated and scored during the assessment. Overall scores for individual
           fusion centers were computed. The team scored the Hawaii fusion center as
           below average in providing the required national capabilities.

           As a result of the State’s slow progress in developing required national
           capabilities and the uncertainty of funding, the future of Hawaii’s Fusion Center
           is in jeopardy. A sustainability plan is needed that includes funding sources and
           options for achieving the required national capabilities.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Office of the Adjutant General, Grant Management Office to:

           Recommendation #24:

           Develop a sustainability plan that includes future funding sources and options for
           achieving the federally required national information sharing capabilities.

           Recommendation #25:

           Focus the Center’s goals and objective to include supporting national
           information sharing capabilities as contained in the FY 2011 Homeland Security
           Grant Program Guidance and Application Kit.

www.oig.dhs.gov                                41                                       OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation #26:

           Establish and enforce a protocol for assessing the Center’s progress in achieving
           the goals and objectives included in the sustainability plan.

           Management Comments and Auditors’ Analysis

           FEMA and State Responses to Recommendation 24: FEMA did not concur with
           this recommendation. FEMA stated that it encourages HSGP recipients who use
           grant funding to operate fusion centers to consider fusion center sustainability
           and develop plans to continue fusion center operations in the absences of
           Federal funds. FEMA will request that the State provide any plan for fusion
           center sustainability that it may have developed, but cannot require SHSP grant
           recipients to sustain fusion center operations in the absence of Federal funding
           as a condition of receiving SHSP awards. For this reason, while FEMA can request
           that the State provide any plan it may have, and can encourage the state to
           develop such a plan, FEMA cannot require sustainability of the fusion center in
           the event the State is unwilling to develop a sustainability plan, or responds that
           it cannot sustain the fusion center in the absence of continuing Federal funding.
           FEMA does not have the statutory authority under these programs to require
           grantees to sustain grant funded projects beyond the grant’s period of
           performance as a condition of applying for or receiving SHSP or UASI award
           funding. The State also did not concur with this recommendation.

           Auditors’ Analysis: Although FEMA did not concur with recommendation 24,
           FEMA has stated that for awards in FY 2012 and beyond it has requested that
           States prioritize sustainment of existing capabilities. Also, the recommendation
           does not state that FEMA require the grantee to sustain fusion center operations
           in the absence of Federal funding as a condition of receiving SHSP awards.
           Instead, the recommendation states that the grantee should develop a
           sustainability plan that includes future funding sources and options for achieving
           the federally required national information sharing capabilities. We encourage
           FEMA to reconsider its position and work with the State to develop a
           sustainability plan. Until FEMA addresses the intent of the recommendation, it
           will remain unresolved and open.

           FEMA and State Responses to Recommendation 25: FEMA concurred with the
           recommendation. FEMA will work with the State and the DHS Office Intelligence
           and Analysis to determine options available to the State to ensure its fusion
           center is an integral part of the national intelligence and information sharing
           network. The State did not concur with the recommendation.

www.oig.dhs.gov                                42                                        OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of recommendation 25. However, until FEMA provides a firm timetable for
           completion, this recommendation will remain unresolved and open.

           FEMA and State Responses to Recommendation 26: FEMA concurred with the
           recommendation. As noted in the response to recommendation 24, FEMA does
           not have the legal authority to mandate that the State sustain the fusion center
           in the absence of Federal funding. For this reason, FEMA cannot mandate that
           the State develop a sustainability plan and, in the event the State chooses not to
           develop a plan, FEMA does not have the authority to require the establishment
           of enforcement of such a protocol. However, FEMA does encourage the States to
           consider sustainability and to develop a sustainability plan. To the extent the
           State chooses to develop a sustainability plan, FEMA will work with the State,
           and the DHS Office of Intelligence and Analysis to ensure that the State is
           meeting the goals and objectives contained in its plan and will assess the State’s
           progress under its plan.

           The State did not concur with the recommendation, and indicated that the
           corrective action is to continue the development of the fusion center. The State
           also said that the fusion center director started one week after the beginning of
           the audit. The State maintains that the fusion center must continue its growth,
           and is keenly sensitive to sustaining the fusion center. The State is planning a
           Joint Emergency Management Center that when built, will also house the Hawaii
           State Fusion Center. The State said it provided a sustainment outline to us as
           part of the audit.

           Auditors’ Analysis: FEMA’s proposed corrective actions are responsive to the
           intent of the recommendation regarding the assessment of the fusion center’s
           progress should a sustainability plan for the fusion center be prepared. However,
           until FEMA provides a firm timetable for completion, this recommendation will
           remain unresolved and open.




www.oig.dhs.gov                                43                                       OIG-14-25

                               OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of the DHS OIG’s oversight responsibilities to promote
   economy, efficiency, and effectiveness within the Department.

   This report provides the results of our work to determine whether the State of Hawaii
   spent SHSP and UASI grant funds (1) effectively and efficiently, and (2) in compliance
   with applicable Federal laws and regulations. We also addressed the extent to which
   funds enhanced the State’s ability to prevent, prepare for, protect against, and respond
   to natural disasters, acts of terrorism, and other manmade disasters.

   The HSGP and its five interrelated grant programs fund a range of preparedness
   activities, including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. However, only SHSP and UASI funding,
   equipment, and supported programs were reviewed for compliance. The scope of the
   audit included the SHSP and UASI grant awards for FYs 2009, 2010, and 2011. The HSGP
   awards to the State of Hawaii for FYs 2009 through 2011 are included table 7. Funding
   was not provided to Hawaii for the HSGP Operation Stonegarden program.

   Table 7: Homeland Security Grant Program Funding
                               Homeland Security Grant Program
                                     FYs 2009 through 2011

           Funded Activity               FY 2009         FY 2010      FY 2011           Total
   State Homeland Security
                                        $6,524,500       $6,613,200   $5,137,205      $18,274,905
   Program
   Urban Areas Security Initiative
                                        $4,754,800       $4,754,800             -0-    $9,509,600
   Program
   Citizen Corps Program                  $145,965        $124,876      $99,702         $370,543
   Metropolitan Medical
                                          $321,221        $317,419     $281,693         $920,333
   Response System Program
   Grand Total                         $11,746,486      $11,810,295   $5,518,600      $29,075,381
   Source: Federal Emergency Management Agency





www.oig.dhs.gov                                    44                                           OIG-14-25

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   We reviewed the plans developed by the State to improve its preparedness and response
   to all types of hazards , the goals set within those plans, the measurement of progress
   toward the goals, and the assessments of performance improvement that result from
   this activity.

   We visited the designated State Administrative Agency and the recipients of FYs 2009
   through 2011 grant funds. The recipients/subgrantees included:

           State Agencies:
               • Department of Accounting and General Services
               • Department of Land & Natural Resources
               • Department of Public Safety
               • Department of the Attorney General
               • Department of Transportation
               • State Civil Defense
               • University of Hawaii 

           Counties: 

               • Hawaii
               • Honolulu
               • Kauai
               • Maui
           Note: There were no other local subgrantees.

   At each location, we interviewed responsible officials, reviewed documentation
   supporting State and subgrantee management of grant funds, and physically inspected
   some of the equipment procured with the grant funds. We met with representative first
   responder organizations such as fire, police, and emergency medical services to discuss
   the grant process, and the benefits the grant funds have brought to their organization
   and communities. We interviewed City of Honolulu officials responsible for the
   management of UASI grant funds received from FYs 2009 and 2010 grants. Our UASI-
   related work was similar to the work performed for the SHSP grants.

   We also interviewed FEMA headquarters and Region IX officials at the beginning of the
   audit and, as needed, during the audit. The FEMA officials provided important
   background information and key documentation concerning the State of Hawaii’s
   management and expenditure of the SHSP and UASI grants.

   We conducted this performance audit between January and June 2013, pursuant to the
   Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the

www.oig.dhs.gov                              45                                       OIG-14-25

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.

   Although this audit included a review of costs claimed, we did not perform a financial
   audit of those costs. This was a performance audit as defined by Chapter 2 of the
   Standards, and included a review and report of program activities with a compliance
   element. Foxx & Company was not engaged to and did not perform a financial
   statement audit, the objective of which would be to express an opinion on specified
   elements, accounts, or items. Accordingly, Foxx & Company was neither required to
   review, nor express an opinion on, the costs claimed for the grant programs included in
   the scope of the audit. Had Foxx & Company been required to perform additional
   procedures, or conducted an audit of the financial statements in accordance with
   generally accepted auditing standards, other matters might have come to their
   attention that would have been reported. This report relates only to the programs
   specified and does not extend to any financial statements of the State of Hawaii.

   While the audit was being performed and the report prepared under contract, the audit
   results are being reported by the DHS Office of Inspector General to appropriate Federal
   Emergency Management Agency and State of Hawaii officials.




www.oig.dhs.gov                              46                                       OIG-14-25

                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                              U.S. Oepanment of llomelaad Seturity
                                                                                              W!!Shington. DC 20-172




                                                                                            FEMA

                                                     NOV 0 4 2013

                  MEMORANDUM FOR:                 Anne L. Richards
                                                  Assistant Inspector General
                                                  Office of Audits
                                                  Department of Homeland Security
                                                                           (!&--.-
                  FROM:                           David J. Kaufman      0
                                                  Associate Administrator for
                                                  Policy, Program Analysis and International AITairs
                                                  Federal Emergency Management Agency (FEMA)

                  SU BJ ECT:                      FEMA"s Response to OIG-12-174-AUD-FEMA ·'Hawaii's
                                                  Management of Homeland Security Grant Program Awards for
                                                  Fiscal Years 2009 through 2011 ".


                  Thank you for the opponunity to review and comment on OIG Drafi Report O JG-1 2-174-AUD-
                  FEMA ··Hawaii's Management of Homeland Security Grant Program Awards for Fiscal Years
                  2009 through 20 II ". The d rafi report contains 26 recommendations for which FEMA concurs
                  with 25 recommendations; 1-23, and 25-26, FEMA non-concur with recommendation 24.

                  OIG Recommendation 1:

                  We recommend that the Assismnt Administrator. Grant Programs D irectorate. require the Office
                  of the Adjutant General, Grant Management Office to develop and implement policies and
                  procedures to ensure that:

                               •   The S tate 's strategy is updated as required and includes goals and objectives
                                   applicable to capabilities that are specific, measurable, achievable, results·
                                   oriented, and time-limited:
                               •   Baselines are identified for the capabilities that will faci litate the measurement of
                                   progress toward achieving the goals and objectives; and
                               •   A plan is fom1alized to monitor progress, compi le key management infonnation,
                                   track trends, and keep the strategy on track.

                  FEMA Response to Recommendations I : Concur. (See consolidated re~ponse below for
                  recommendations 1-2)




www.oig.dhs.gov                                                      47                                                              OIG-14-25

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              OIG Recommendation 2: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to include the
              progress achieved in accomplishing goals and objectives, along with the assessment of risk, in
              the decision making process for future grant funding decisions.

              FEMA Consolidated Response to Recommendations 1 & 2: Concur. FEMA has established
              and implemented a system to help states, territories and urban areas develop strategic plans that
              establish measurable goals and objectives that will enable them to systematically measure
              improvements in first responder capabilities and statewide preparedness. The system established
              and implemented is described below.

              Measuring Grant Effectiveness
              As part of the National Preparedness System, FEMA has developed and is implementing
              performance assessments that measure progress toward achieving the Goal. FEMA' s strategy is
              to base assessments on the principles that the Nation needs to understand existing risks, use those
              risks to determine required capabilities, assess current capability levels against those
              requirements, and track its progress in closing identified capability gaps.

              In 20 12, FEMA released a consistent methodology for determining risks in the Comprehensive
              Prepuredn~t>s G,.ide 201: Threat and Hazard identification and Risk Assessment ([/liRA) Guide
              (CPG-201). CPG-201 details a five-step process jurisdictions can use to achieve desired
              outcomes and capability targets for each of the core capabilities. This approach allows a
              jurisdiction to establish its own capability targets based on the risks it faces.

              On December 31, 2012, states, territories, and major urban areas receiving Homeland Security
              Grant Program (HSGP) funds were required to submit their THIRAs to FEMA. Once each
              jurisdiction has determined capability targets through the THIRA process, it estimates its current
              capability levels against those targets. Also in 2012, states and territories were required to
              submit State Preparedness Reports (SPRs) to FEMA. The THIRA and SPR processes are
              scalable to allow sub-jurisdictions, sub--grantees and subject matter experts to provide input to
              the state or territory. Taken together, the THIRA results and the SPR identify capability needs
              and gaps. The THIRA. and SPR results highlight gaps in capability and the progress of grantees
              in closing those gaps over time. FEMA reports the results of the capability assessments annually
              in the National Preparedness Report (NPR).

              Sustaining, Building and Delivering Capabilities
              Having estimated capability requirements, the next component of the National Preparedness
              System is to build and sustain capabilities. This step ties grant investments directly to needs and
              shortfalls. Grantees address documented capability requirements and gaps in their grant
              applications. In the investment justifications (IJ) submitted in the grant application, grantees
              must specifically identify the core capability or capabilities, the priority of the core capability as
              well as the capability gaps noted in their SPR that investment intends to address. In addition, the
              grantee must identify the specific outcome(s) that the investment will yield. FEMA verifies
              completion of the investment/project through its programmatic monitoring and spending on the
              investment through the Biannual Strategy Implementation Report (BSIR), also a tool used in the




                                                                2




www.oig.dhs.gov                                                48                                                      OIG-14-25

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              monitoring process. Since the period of performance for the Homeland Security Grant Program
              is two years, a time limit is set for completion of the project once it is funded.

              FEMA addressed the OIG recommendation for States to establish SMART goals and objective3
              that will enable States and Territories to systematically measure improvements in first responder
              capabilities and statewide preparedness by requiring states to use a set of tools including the
              TiiiRA, SPR, and Investment Justifications (Ds). Strategy updates are encouraged but not
              required as the THIRA, SPR and IJ methodology provide the goals and assessment of progress
              against those goals.
              Finally, CPG 201: Threat and Hazard Identification and Risk Assessment Guide Supplement I:
              Toolkit provides all the required templates to complete the TiilRA process including information
              and dm:umentation used to develop and compile threat and hazard information. As the THIRA
              VIii! be an annual iterative process, subsequent iterations will build on the documents from
              previous years.

              Hawaii has submitted their FY 2012 THIRA (attachment 1A) and SPR (attachment 1B). In
              accordance with the FY 20 13 Homeland Security Grant Program Funding Opportunity
              Announcement, Hawaii has submitted investment justifications based on their THIRA and SPR.
              (See attached TiiiRA and SPR submitted by the State).

              FEMA addressed the recommendation for assessment and reporting systems by requiring States
              and Territories to use the THIRA, SPR, and IJs as the basis for statewide assessment and
               reporting. The methodology and tools for THIRA and SPR are scalable and available to local
              jurisdictions and sub-grantees.

              FEMA believes that use of the THIRA, SPR and IJ satisfies the intent of this recommendation
              and requests that recommendations be closed.

              OIG Recommeodatioo 3: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to evaluate the
              effectiveness of the manual issued in November 2012 to ensure that the day-to-day activities
              within the Grant Management Office are performed in accordance with Federal requirements,
              and update the manual as necessary.

              FEMA Respoose to Recommendations 3: Concur. FEMA will verify with the State that the
              updated Grants Management System and assodated policies and procedures it uses are current
              and applicable to applicable Federal requirements and conform to HSGP.

              OIG Recommendation 4: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to use the
              documented policies and procedures as tools for training new staff, succession planning, and
              ensuring consistent and uniform handling of day-to-day activities.

              FEMA Response to Recommendations 4: Concur. FEMA will confirm that the State has a
              management tool in place, and that it includes policies and procedures to ensure that day to day
              activities for grants management, staff training and planning is lll1iformly executed.


                                                              3




www.oig.dhs.gov                                              49                                                   OIG-14-25

                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




              OIG Recommendation 5: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office ofthe Adjutant General, Grant Management Office to establish
              and implement policies and pmcedures to ensure compliance with Federal and State regulations
              for sole source procurements.

              FEMA Response to Recommendations 5: Concur. FEMA will work with the State to ensure
              adequate policies are in effet:t for sole source and other types of procurements that ensures
              compliance with applicable Federal and State regulations in situations where grant funds are
              used to acquire or purchase goods and services.

              OIG Recommendation 6: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to ensure that
              cost analyses are performed in accordance with Federal regulations when sole source
              procurements are justified.

              FEMA Recommendations 6: Concur. FEMA will require the State to include cost analysis
              reviews consistent with 44 C.F.R. § 13.36 in the Procurement policies and procedures they
              develop.

              OIG Recommendation 7: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to conduct the
              required cost analysis for all S!.Jle source procurements made under the FY 2009 through FY
              2011 SHSP and UASI awards, and disallow and recover any unreasonable amounts.

              FEMA Response to Recommendation 7: Con~ur. FEMA will provide the State an
              opportunity to submit an explanation of why, under the pertinent facts and the applicable legal
              authority, it disagrees with OIG's recommendation including why any debt amount referenced is
              not owed and unpaid in the amount specified. The grantee will be instructed to include this as
              part of its Corrective Action Plan Update to FEMA within 90 days of receipt of the b>Tantee
              notification memo and to also include any and all supporting evidence. The grantee will be
              advised that it can refer to any previously submitted evidence in lieu of resubmitting such
              evidence. This submission must be made in a timely manner to the grantee's Grant Programs
              Directorate Program Analyst.

              OIG Recommendation 8: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to implement
              procedures in accordance with the November 2012 policies and procedures manual to ensure
              compliance with Federal time reporting requirements for personnel costs by activity reports or by
              a substitute system that identifies time expended on Federal awards by grant.

              FEMA Respomse to Recommendation 8: Concur. FEMA will require the State to develop
              policies and procedures that accurately record time worked by personnel on allowable activities
              paid for by grant funds.




                                                             4




www.oig.dhs.gov                                             50                                                    OIG-14-25

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              OIG Recommendation 9: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grl:I.Ilt Management Office to verify that
              the unsupported personnel costs claimed against FYs 2009 through 2011 HSGP grant awards
              were expended on activities identifiable to the individual grants by providing documentation that
              adequately supports the $857,209 questioned as valid charges, or recover the amount not
              supported and return to FEMA.

              FEMA Response to Recommendation 9: Concur. Based on initial analysis of the questioned
              costs identified in this recommendation FEMA will initiate its Debt Collection process (FEMA
              Directh·e 116-1, "Submission of Debt to the FEMA Finance Center") to determine if the
              questioned cost identified is allowable, or is disallowed, and therefore will be recouped.

              OIG Recommendation 10: We recommend that the Assistant Administrator, Grant Programs
              Diret;torate, require the Office of the Adjutant General, Grant Management Office to implement
              the subgrantee monitoring procedures developed in October 2012.

              FEMA Response to Recommendation 10: Concur. FEMA will require the State to comply
              with the prescribed monitoring protocols it developed in 2012, and use these protocols in
              monitoring subgl'llntees.

              OIG Recommendation 11: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to develop
              and comply with a schedule for monitoring subgrantees using the subgrantee monitoring
              procedures.

              FEMA Response to Recommendation 11: Concur_ FEMA will require the State to include a
              monitoring schedule as part of their policies and procedures for subgranlee monitoring.

              OIG Recommendation 12: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to evaluate the
              effectiveness of the November 2012 policies l:I.Ildprocedures manual and the October 2012
              subgrantee monitoring manual regarding property management, and revise as necessary.

              FEMA Response to Recommendation 12: Concur. FEMA will review the 2012 policies and
              procedures manual to ensure it adequately supports the implementation of a comprehensive
              monitoring program.

              OIG Recommendation 13: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to monitor
              subgrantee compliance with property management requirements.

              FEMA Response to Recommendation 13: Concur. FEMA will ensure that the State develops
              policies and procedures consistent with the requirements 44 C.F.R. § 13.32to monitor subgrantee
              property records accurately and in a timely manner.




                                                               5




www.oig.dhs.gov                                               51                                                    OIG-14-25

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              OIG Recommendation 14: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to direct
              subgrantees to establish and maintain property management records in accordllilce with Federal
              requirements, conduct the required 2-year inventory inspections, and reconcile the results to the
              property records.

              FEMA Response to Recommendation 14: Concur. FEMA will require the State to institute a
              sub grantee property records management and verification process to reconcile and document
              property records that is consistent with the requirements 44 C.F.R. § 13.32.

              OIG Reeonunendation IS: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to develop
              and implement procedures to ensure compliance with the SHSP grant requirements concerning
              written consent from subgrantces when funds are retained by the State.

              FEMA Response to Recommendation 15: Concur. FEMA will ensure that the State
              implements and follows a memorandum of agreement (MOU) process for obtaining subgrantee
              approval if/when The State retains SHSP funding on behalf of a local jurisdiction or subgrantees.

              OIG Recommendation 16: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to determine
              what the retained funds of$3,275,509 were used for and evaluate if the funding and ex.penditures
              were for the benefit of each respective subgrantee.

              FEMA Response Co Recommendation 16: Concur. Based on initial analysis of the questioned
              costs identified in this recommendation FEMA will initiate its Debt Collection process (FEMA
              Directive 116-1, "Submission ofDebt to the FEMA Finance Center'') to detennine if the
              questioned cost identified is allowable, or is disallowed, and therefore will be recouped.

              OIG Recommendation 17: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to if the funds
              that were retained were not u~ed for the benefit of the subgrantccs, the funds from expired grants
              should be returned to FEMA and the unexpired grant funds should be awarded to the appropriate
              subgrantees for their use.

              FEMA Response to Recommendations 17: Concur. FEMA will provide the State an
              opportunity to submit an explanation of why, under the pertinent facts and the applicable legal
              authority, it disagrees with OIG's recommendation including why any debt amount referenced is
              not owing and unpaid in the amount specified. The grantee will be instructed to submit this along
              with any and all supporting evidence as part of its Corrective Action Plan Update to FEMA
              within 90 days of receipt of the grantee notification memo.

               The grantee will be advised that it can refer to any previously submitted evidence in lieu of
              resubmitting such evidence. This submission must be made in a timely manner to the grantee's
              Grant Programs Directorate Program Analyst.




                                                               6




www.oig.dhs.gov                                              52                                                    OIG-14-25

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              OIG Ruommendatlon 18: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Offic:c: of the Adjutant General, Grant Management Office to develop
              and implement procedures, with appropriate controls (such as enforced deadlines), to ensure that
              grant funds are expended in a timely manner.

              FEMA Response to Recommendation 18: Concur. FEMA will work with the State to ensure
              that sub awards are executed within the required time frame, and that they include appropriate
              control mechanisms to protect against improper uses of the funds.

              OIG Recommendation 19: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to complete a
              reconciliation of the expenditures in the Grant Management System to determine the accuracy
              and timeliness of the recordings. FWlds for any claimed expenditures that cannot be supported
              should be returned to FEMA.

              FEMA Response to Recommendation 19: Concur. FEMA will provide the State an
              opportunity to submit an ex.planation of why, Wlder the pertinent facts and the applicable legal
              authority, it disagrees v.ith OIG's recommendation including why any debt amount referenced is
              not owing and unpaid in the amount specified. The grantee will be instructed to submit this along
              with any and all supporting evidence as part of its Corrective Action Plan Update to FEMA
              v.ithin 90 days of receipt ofthe grantee notification memo.

              The grantee will be advised that it can refer to any previously submitted evidence in lieu of
              resubmitting such evidence. This submission must be made in a timely manner to the grantee's
              Grant Programs Directorate Program Analyst.

              OIG Recommendation 20: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to develop
              and implement procedures to ensure that future expenditures are accurately recorded in a timely
              manner in the Grant Management System, properly supported with appropriate documentation,
              and are readily reconcilable to supporting invoices and other related documents.

              FEMA Response to Recommendation 20: Coacur. FEMA will work with the State to ensure
              it has policies and procedures in place to adequately reconcile accounts and the State's Grants
              Management System.

              OIG Reeommendatioa 21: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to determine
              what the retained funds of$3,275,509 were used for and evaluate if the funding and expenditures
              were for the benefit of each respective subgrantee.

              FEMA Response to Recommendation 21: Concur. We recommend that the Assistant
              Administrator, Grant Programs Directorate, require the Office of the Adjutant General, Grant
              Management Office to establish and implement procedures to ensure that financial status reports
              are prepared, certified, and submitted in accordance with Federal requirements and signed by
              appropriate Hawaii Grant Management Office officials.


                                                              7




www.oig.dhs.gov                                              53                                                   OIG-14-25

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              OIG Recommendation 22: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office: to establish
              and implement procedure~ to ensure that equipment procured is needed and ready for use as
              intended in a timely manner.

              FEMA Response to Recommendation 22: Concur. FEMA will work with the State to ensure
              that their equipment purchases arc needs based and available for utilization when procurements
              are made and the equipment is re¢eived.

              OJG R~:commendation 23: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to for the
              unused equipment observed during the audit:
                  • Determine if the equipment is needed;
                  • If the equipment is needed, ensure that appropriate maintenance is routinely conducted
                      and that it is ready for use when needed;
                  • If not needed, reassign the equipment to other subgrantees who do need it; or
                  • If not needed in Hawaii, consult with FEMA on the best use for the unused equipment.

              FEMA Response to Recommendation 23: Concur. FEMA will require the State to confirm
              that all grant funded equipment remains needed for uses that are authorized by federal law and
              regulations. In cases where grant funded equipment is not currently being used for a proper
              purpose, or is excess or no longer needed, FEMA "'ill require the State to make use of the
              equipment for a proper purpose or make disposition of the equipment as required by 44 C.F.R. §
              13.32.

              OIG Recommendation 24: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office: to develop a
              sustainability plan that includes future funding sources and options for achieving the federally
              required national information sharing capabilities.

              FEMA RespoDse to Recommendation 24: Non-Concur. FEMA encourages HSGP recipients
              who use grant funding to operate fusion centers to consider fusion center sustainability and
              develop plans to continue fusion center operations in the absences of federal funds. FEMA will
              request that the State provide any plan for fusion center sustainability that it may have
              developed. But, as explained below, FEMA cannot require HSGP grant recipients to sustain
              fusion center operations in the absence of federal funding as a condition of receiving HSGP
              awards. For this reason, while FEMA can request that the State provide any plan it may have,
              and can encourage the state to develop such a plan, FEMA cannot require slllitainability of the
              fusion center in the event the State is unwilling to develop a sustainability plan, or responds that
              it cannot sustain the fusion center in the absence of continuing federal funding.

              Congress statutorily created the UASI and SHSP grant programs in Title XX of the Homeland
              Security Act of2002, as amended. As enacted by Congress, the UASI and SHSP programs do
              not require state and local level grant recipients to provide any cost sharing or cost matching
              contributions, nor are grant recipients statutorily required to sustain and maintain grant funded
              projects for any length of time beyond the grant's period of performance. The result is that these


                                                               8




www.oig.dhs.gov                                               54                                                     OIG-14-25

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              programs, as designed by Congress. allow grantees to achieve target capabilities using I 00%
              federal funding. and require grantees to sustain and maintain those capabilities only during the
              grant's period of performance. FEMA does not have the statutory authority under these
              programs to require grantees to sustain grant funded projects beyond the grant's period of
              perfonnance as a condition of applying for or receiving SHSP or UAST award funding.

              Notwithstanding the lack oflegal authority to require States and other HSGP grant recipients to
              maintain and sustain capabilities in the absence of continuing federal grant funding, since FY
              2011, FEMA has required that each state, tenitory and urban area eligible for funding under the
              UASI program prioritize grant funding for fusion centers though the submission of a mandatory
              investment justification for this purpose. Further, since FY 2012, FEMA has required that HSGP
              grantees prioritize sustainment of existing capabilities over utilizing grant funding to build new
              capabilities and requires that grantees supply information substantiating this prioritization in
              their investment justifications and Biannual Strategy Implementation Reports {BSIR). Despite
              the lack oflegal authority to require States to maintain and sustain capabilities in the absence of
              federal grant funding, FEMA has used administrative and policy mechanisms to ensure that
              grant funded capabilities are sustained to the extent that grant funding is available.

              OIG Recommendation 25: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to focus the
              Center's goals and objectives to include supporting national infonnation sharing capabilitic~ as
              contained in the FY 2011 Homeland Security Grant Program Guidance and Application Kit.

              FEMA Response to Recommendation 25: Concur. FEMA will work with the State and the
              DHS Office Intelligence and Analysis (I&A) to determine options available to the State to ensure
              its fusion center is an integral part of the national intelligence and information sharing network.

              OIG Recommendation 26; We recommend that the Assistant Administrator, Grant Programs
              Directorate, require the Office of the Adjutant General, Grant Management Office to establish
              and enforce a protocol for assessing the Center's progress in achieving the goals and objectives
              included in the sustainability plan

              FEMA Response to Recommendation 26: Concur. As noted in the response to
              Recommendation #24, FEMA does not have the legal authority to mandate that the State sustain
              the fusion center in the absence of federal funding. For this reason, FEMA cannot mandate that
              the State develop a sustainability plan and, in the event the State chooses not to develop a plan,
              FEMA does not have the authority to require the establishment or enforcement of such a
              protocol. But, FEMA does encourage the States to consider sustainability and to develop a
              sustainability plan. To the extent the State chooses to develop a sustainability plan, FEMA will
              work with the State, and the DHS Office of Intelligence and Analysis (l&A) to ensure that the
              State is meeting the goals and objectives contained in its plan and will assess the State's prosress
              under its plan.




                                                               9




www.oig.dhs.gov                                               55                                                     OIG-14-25

                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




              Thank you again for the opportunity to comment on OIG-12-174-AUD-FEMA "Hawaii's
              Management of Homeland Security Grant Program Awards for Fiscal Years 2009 through 2011"
              and for the work that you and your team have done to better inform us throughout this audit so
              that we may enhance the program's overall effectiveness. We look forward to your final report
              for this audit Please direct any questions regarding this response to Gary McKeon, FEMA's
              Chief Audit Liaison, at 202-646-1308.




                                                            10




www.oig.dhs.gov                                            56                                                  OIG-14-25

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




          NEIL ABERCROMBIE                                                                               DARRYLL D. M. WONG
                                                                                                           MAJOR GENERAL
              GOVERNOR
                                                                                                          ADJUTANT GENERAL


                                                                                                           JOSEPH K. KIM
                                                                                                          BRIGADIER GENERAL
                                                             STATE OF HAWAII                           DEPUTY ADJUTANT GENERAL

                                                      DEPARTMENT OF DEFENSE
                                                      OFFICE OF THE ADJUTANT GENERAL
                                                          3949 DIAMOND HEAD ROAD
                                                        HONOLULU, HAWAII96B16-4495


                                                           November 19,2013


                  Anne L. Richard
                  Assistant Inspector General for Audits
                  Office of the Inspector General
                  U.S. Department of Homeland Security
                  Washington, D.C. 20472

                  Dear Ms. Richards:

                  Please accept this letter with attachment as an official response to Draft Report: Hawaii's
                  Managemen t of Homeland Securit;y Grant Program Awards for Fiscal Years 2009 through 2011 - For
                  Official Use Only, for audit conducted by Foxx and Company.

                The audit was conducted during an opportune time in that I had moved the entire grant function
                directly under my direction six months prior. in addition, I have secured legislative approval for an
                Office of Homeland Security where the Grants Management Office will reside. I would like to thank
                Foxx and Company for providing me a gauge as to where the program requires additional oversight.
                Overall, I will maintain that some of these r ecommendations are valid and steps have been taken to
                improve many of the recommendations. I also feel we have a successful program and our
                responders and response agencies are better prepared to prevent, protect, respond, and recover
                from man-made or natural disaster.

                We have reviewed the findings thoroughly and have determined the following:

                    Finding              Related To              Estimated Completion       Agree/Disagree w ith
                   Numbers                                               Date                     Findine:s
                  1,2          Strategic Plannine:               May31, 2014            Agree with findine:s
                  3,4          Internal Grant Management         December 31, 2013      Disagree with findings
                               Office Procedures
                  5,6, 7       Sole Source                      Completed               Agree with findings
                  8,9          Certification                    Completed               Agree with findings; disagree
                                                                                        with synoosis
                  10,11        Monitoring Plan                  December 31 , 2013      Agree with findings
                  12,13,14     Inventory                        Ongoinl!                Agree with findings
                  15, 16,17    Funding distrihution             Completed               Disagree with findings
               ~               Encumbrance                      Ongoing                 Agree with findings
                  19,20        Grants Management System         September 30, 2014      Agree but disagree with the
                               Inventory                                                synopsis
                  21           Reports                          Completed               Agree with findings
                  22,23        Maintenance and Equipment        March 31, 2011          Agree with findings
                               Use Procedure
                                                                                                                        i
                  24, 25,26    Fusion Center                    Ongoing                 Disagree with findings          I




www.oig.dhs.gov                                                  57                                                           OIG-14-25

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                  Ms. Anne L. Richards
                  Page 2
                  November 19, 2013




                  Based on the above char t, I would like to comment on a few of the findings:

                     1. We are very concerned with the inventory findings. Based on the concerns as well as
                        preparing for other opportunities, the Grants Management Office is preparing to embark on
                        a 100 percent inventory beginning with grant year 2009. The inventory of the Homeland
                        Security equipment could potentially be completed prior to the date identified but we
                        realize this is a large project and will require a concentrated effort

                     2. Completing the strategic plan is the top priority. With the foundation completed, the
                        remainder strategic plan should be completed by May 31, 2014. A second priority is there-
                        establishment of the Homeland Security Office. Once formed, the concerns of the Auditors
                        related to the Fu~ion Center are expected to be mitigated.

                     3. The audit was quite CJitical of the Hawaii State Fusion Center. We are very mindful of the
                        criticisms related to sustainment of the fusion center. Once we have the Office of Homeland
                        Security established, we will be requesting funding from the State Legisbture to support the
                        core Fusion Center staff. In the meantime, having the Hawaii State Fusion Center co-located
                        with our High Intensity Drug Trafficking Area (HIDTA) saves significant funding
                        requirements. A long-term goal for the state is to build a joint Emergency Management
                        Center where the Hawaii State Fusion Center will be located.

              The Grants Management Office continues to improve its management and oversight for the
              Homeland Security Grant Pr ogram. They have implemented policies and procedures for the
              Homeland Security Grant Program, as well as other federal grant programs managed by State
              Department of Defense. The Grants Management Office coordinates and collaborates very closely
              with each of its sub-grantees to ensure they have the tools they need and the as~istance to manage
              their program~.

              On behalf of all the sub-grantees we continue to be concerned with the two-year performance
              period for grant programs. The two-year period is insufficient to complete the federal
              requirements as well as obtaining Governor or Council approvals before funds can be expended. It
              continues to be a concern as we approach the closeout of the 2011 and 2012 grant years.

              If there are additional questions, please have your staff contact Ms. Dolores Cook, Grants
              Management Office, at email dolorescook@dod.hawaii.gov or by phone, 808-733-4205.

              Sincerely,




                jor Genera.!
              Hawaii National Guard
              Adjutant General




www.oig.dhs.gov                                                  58                                                    OIG-14-25

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                  Ms. Anne L. Richards
                  Page 3
                  November 19, 2013




                  Attachment

                  c. Mr. Brian E. Kamoie, Assistant Administrator, Grants Program Directorate, Federal Emergency
                     Management Agency, Room 5007 Techworld Huilding. 500 C Street, S.W., Washington, D.C. 20472

                    Mr. David Nichols, Program Analyst, Grants Management Directorate, Federa l Emergency
                    Management Agency, Room 5007 Tech world Building. 500 C Street, S.W., Washington, D.C. 204 72

                    Fox & Company, 700 Goodall Complex, 324 West Ninth Street, Cincinnati, Ohio 45202




www.oig.dhs.gov                                              59                                                     OIG-14-25

                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




                                                              State of Hawaii
                                                     Depanment of Homeland Security
                                                      Office of the Inspector General
                                                               AuditRepon


             General Comments:
             Details missing to challenge Foxx and Company- We have it highly unfair to provide the critique toward
             our operations wit hout having visibility of the analysis completed by Foxx and Company. As we all know,
             figures can say whatever we want them to say. Theref ore to be fair to the State, we should have access to
             each and every analysis.

                  Find lngs 1 and 2

                  1.      Develop and implement policies and procedures to ensure that:
                          •   The State's strategy is updated as required and includes goals and object ives applicable
                              to capabilities that are specific, measurable, achievable, results-oriented, and time-limited;
                          •   Baselines are identified for t he capabilities t hat will facilitate the measurement of progress
                              toward achieving the goals and objectives; and
                          •   A plan is formalized to monitor progress, compile key management information, track
                              t rends, and keep the strategy on track.

               2.        Include the progress achieved in accomplishing goa ls and objectives, along with the assessment
                         of risk, in the decision making process for future grant funding decisions.

                         The State Depanment of Defense agrees with both findings.

                         Corrective Action: Contract awarded by December 31, 2013; st rategy completed by
                         May 31, 2014

                         The State Homeland Security Strategic Plan is under developments. Once completed, a copy w ill
                         be provided to Department of Homelancl Security Preparedness Analyst as well as being
                         updating in the Reporting Portal.

                         Estimated completion: May 31, 2014

                         Discussion: The strategic plan framework has been provided to Foxx and Company. The plan
                         will continue to use the implementation plan as a process for determining grant funding
                         decisions. The Threat Hazard Identification Risk Identification Plan w ill be usecl with the
                         strategic plan.



               Findings 3 and 4

               3.        Evaluate the effectiveness of the manual issued In November 2012 t o ensure that the day-to-
                         day activities within the Grant Management Office are performed in accordance with Federal




                                                                                                                    -
                         requirements, and update t he manual as necessary.

                                            State of Hawaii Preliminary Audit Findings




www.oig.dhs.gov                                                      60                                                          OIG-14-25

                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                  4.    Use the documented policies and procedures as tools for training new staff, succession
                        planning, and ensuring consistent and uniform handling of day-to-day activities.

                        The State Department of Defense does not fully agree with these findings.

                       Corrective Actions: An internal Standard Operating Procedure is under development. A table of
                       contents was provided to Foxx and Company. The City and County of Honolulu will also be
                       developing an operational manual.

                       Estimated Completion: December 31, 2013

                       Discussion: Page 8 contained misleading statements. The last three bullets were presented to
                       Foxx and Company during the exit conference to document the comments however to date
                       these have not been clarified.

                       The first two bullets are a result of the control breakdowns- t he Initial Strategy Implementation
                       Plan and reporting issues were correct and provided to Foxx and Company; the strategic plan is
                       under development.

                       The Procedural Manual is not meant to be a day-to-day guide for the staff.


              Findings 5, 6, 7

              5.       Establish and implement policies and procedures to ensure compliance with Federal and State
                       regulations for sole source procurements.

              6.       Ensure that cost analyses are performed in accordance with Federal regulations when sole
                       source procurements are justified .

              7.       Conduct the required cost analysis for all sole source procurements made under the FY 2009
                       through FY 2011 SHSP and UASI awards, and disallow and recover any unreasonable amounts.

                       The State Department of Defense agrees with the findings.

                       Corrective Action: Completed

                       Corrective Action: A Price-Cost Analysis form has been added to the Grants Management
                       Procedural Manual. A copy of the Procedural Manual has been provided to the Department of
                       Homeland Security Preparedness Analyst.

                       Discussion: The four documents identified by Foxx and Company have been documented and
                       details provided to the Auditors.




                                        State of Hawaii Preliminary Audit Findings


                                                                                                              -
www.oig.dhs.gov                                                 61                                                          OIG-14-25

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                  Findings 8 and 9

                  8.     Implement procedures in accordance with the November 2012 policies and procedures manual
                         to ensure compliance with Federal t ime reporting requirements for personnel costs by activity
                         reports or by a substitute system that identifies time expended on Federal awards by grant.

                  9.     Verify that the unsupported personnel costs claimed aga inst FYs 2009 through 2011 HSGP grant
                         awards were expended on activities identifiable to the individual grants by providing
                         documentation that adequately supports the $857,209 questioned as valid charges, or recover
                         the amount not supported and return to FEMA.

                         The State Department of Defense agrees with the finding related to the certifications but does
                         not agree with the amount questioned .

                         Corrective Action: Corrected; certificates were provided to Foxx and Company

                         Discussion: This finding relates to individuals who were paid by the grant in most cases by
                         State Civil Defense and the Urban Area Security Initiative. A standard work analysis record and
                         certification is being used by grantee and sub-grantees. Several ofthose individuals previously
                         paid under the grant are no longer associated with the grant program- measures have been
                         successful to provide funding from other sources.

                         In review of t he payroll expended during the period in question our payroll computation does
                         not match the Foxx and Company computation . However, without having the details related to
                         the finding, it is difficult to analyze . These were legitimate payroll expenses.


              Findings 10 and 1l

              10.       Implement the sub-grant ee monitoring procedures developed in October 2012.
              11.       Develop and comply with a schedule for monitoring sub-grantees using the sub-grantee
                        monitoring procedures.

                        The State Department of Defense agrees with beth findings.

                        Corrective Action: A new sub-monitoring schedule is being coordinated; completed by
                        December 31, 2013

                        Discussion: The Grants Management Office continually collaborates with all sub-grantees. The
                        primary issue is documenting all the different monitoring processes conducted by the Grants
                        Management Office. The Grant Management Office is acutely aware of each sub-grantees
                        status.



              Findings 12. 13. and 14

              12.       Evaluate the effectiveness ofthe November 2012 policies and procedures manual and the




                                                                                                              -
                        October 2012 sub-grantee monitoring manual regarding property management, and revise as

                                          State of Hawa ii Prelimina ry Audit Findings




www.oig.dhs.gov                                                   62                                                       OIG-14-25

                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




                         necessary.

                  13.     Monitor sub-grantee compliance with property management requiremen ts.

                  14.    Direct sub-grantees to establish and maintain property management records in accordance with
                         Federal requirements, conduct the required 2-year inventory inspections, and reconcile the
                         results to the property records.

                         The State Department of Defense agrees with the findings.

                         Corrective Action: On-going

                         Estimated Completion; 100% inventory completed September 2014

                        Discussion: Inventory is conducted annually which includes the Homeland Security purchases.
                        What has been lacking is the control such as identification of equipment as fair, wear, and tear,
                        lost, destroyed, transferred equipment. These procedures are identified In the procedural
                        manual but admittedly, inventory practices have not been enforced by leadership.

                        The Grants Management Office has a standard inventory form for Homeland Security Grant
                        purchases. Homeland Security purchases are included with state/county inventory and does not
                        record the depth required by the FF 428 or the Grant Management Office Procedural Manual.
                        The Grants Management Office is working on producing an inventory from grant records to
                        standard ize the inventory. The initial report was generated for the FY 2010 Homeland Security
                        Grant Program. Additional work is necessary on the tool.

                        The Homeland Security purchased equipment is integrated with all property owned by
                        county/state agencies. The Office of Information Management and Technology is implementing
                        plans to upgrade all the core functions within the State. The inventory system Is scheduled for
                        2017. By upgrading the Grants Management System with an inventory tool, a complete history
                        will be possible. Eventually, a photo of equipment will be integrated with the purchase. The
                        Grants Management will be part of the ERP development.



              Findings 15, 16. and 17

              15.       Develop and implement procedures to ensure compliance with the SHSP grant requirements
                        concerning written concert from sub-grantees when funds are retained by the State.

              16.       Determ ine what the retained fund s of$3,275,509 were used for and evaluate if t he funding and
                        expenditures were for the benefit of each respective sub-grantee.

              17.       If the funds that were retained were not used for the benefit of t he sub-grantees, the fund s
                        from expired grants should be returned to FEMA and the unexpired grant funds should be
                        awarded to the appropriate sub-grantees for their use.

                        State Department of Defense does not agree with these findings.


                                          State of Hawoii Preliminary Audit Findings


                                                                                                                -
www.oig.dhs.gov                                                   63                                                        OIG-14-25

                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                      Corrective Action: The 2009, 2010, 2011 Memorandums of Agreement have a Grant
                      Adjustment Notice identifying the specific state attribution.

                      Estimated Completion: Completed; documentation was provided to Foxx and Company.

                      Discussion: Each grant year, the distribution of funds is provided with the Memorandums of
                      Agreements that are signed by the County Mayors. In the years questioned the distribution was
                      discussed with each ofthe Mayor's prior to the distribution of the Memorandums of
                      Agreement. Areas such as training and exercises, Search and Rescue, the Asia Pacific Econom ic
                      Conference, Shelter Improvement Project are examples where funds agreed upon to be
                      managed by the state on behalf of the counties.

                      The situation in the State of Hawaii is that most functions reside at the state level, not the
                      county. Many of the state agencies have a large presence in each j urisdiction. State agencies in
                      each of the jurisdiction are part of the county response and sit in county emergency operation
                      center. Therefore, state agency support provided to county staff is aligned at the end of the
                      grant as a benefit to the county. Each county has benefited immensely from t he homeland
                      security grant program funding, however the 80-20 split does not al ign well with only four
                      counties, with limited response agencies and top heavy state where these resources work in the
                      county supporting the count y teams.

                      Grant Adjustment Notices have now been issued for each grant year and the four counties
                      identifying the state contribution to each jurisdiction. New Memorandums of Agreement have
                      the distribution of funding clearly identified.


              Finding 18

              18.    Develop and implement procedures, with appropriate controls (such as enforced deadlines), to
                     ensure that grant funds are expended in a timely manner.

                     State Department of Defense agrees with this finding.

                     Corrective Action: Continuous; on going

                     Estimated Completion: Short-term is December 31, 2013 encumbrance dates for 2011 and
                     2012 programs.

                     Discussion: Encumbrance dates are established for each grant program. Enforcement is key.


              Findings 19 and 20

              19.    Complete a reconciliation of the expenditures in the Grant Management System to determine
                     the accuracy and timeliness of the recordings. Funds for any claimed expenditures t hat cannot
                     be supported should be returned to FEMA.

              20.    Develop and implement procedures to ensure that future expenditures are accurat ely recorded

                                       State of Hawaii Preliminary Audit Findings




www.oig.dhs.gov                                                64                                                         OIG-14-25

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                          in a timely manner readily reconcilable to supporting invoices and other related documents.

                          State Department of Defense agrees with the examples presented but not the foundation of the
                          finding.

                          Corrective Action: Conduct a 100 percent inventory completed by September 30, 2014

                          Estimated Completion: September 30, 2014

                          Discussion: We are quite proud ofthe Grants Management System. It has proven to grow and
                          expand as the programs have grown. The two examples presented for the State Blended System
                          ancl the Buffer Zone are in fact correct observations. These errors occurred during 2011 and
                          have not yet been resolved. Actions are being taken to correct entailing a complete inventory
                         and contract closeout adjustments. There is also a teaching point to the staff by constant and
                         consistent review of such entries as "JV" or listing contract numbers. The Grants Management
                         System contains over 8,000 entries; it requires continuous review. Luckily it can be modified
                         internally based on new guidance, compliances, oversight, etc. The Grants Management System
                         is as correct as the information being reported. Reconciliations are conducted with sub-
                         grantees on a regular basis. Reconciliations have begun with the quarterly report with each sub-
                         grantee. This is already being conducted with the Department of Defense Fisca l Office to ensure
                         the data for both entities are correct. This also identifies unobligated funds and provides
                         opportunity to investigate prior to beginning closeout. Closeout reconciliation will normally
                         begin six months prior.                                    ·

                         The Grants Management Syst em is reviewed with invoices on a regular basis and is in fact
                         checked during closeout.


                  Findings 21

                  21.    Establish and implement procedures to ensure that financial status reports are prepared,
                         certified, and submitted in accordance with Federal requirements and signed by appropriate
                         Hawaii Grant Management Office officials.

                         State Department of Defense agrees with finding.

                         Corrective Action: Completed; signed reports for 2011 provided to Foxx and Company

                         Discussion: Reports are considered very important and dedicated t ime is taken to complete
                         reports. Reports issued during 2011 were reviewed since they were not being signed. All
                         reports were reviewed with SAA for signat ure. Unfortunately some were missed in the file but
                         are now signed. Copies were provided to Foxx and Company. Reports are maintained by
                         quarter and grant program. Only t he Grant Management Administrator completes all reports.

                         It is unknown what reports through December 2012 were late. We do take exception after July
                         2012 that t he reports were on schedule, signed by the SAA and copies provided to the
                         appropriate federal entities.


                                          State of Hawaii Preliminary Audit Findings


                                                                                                              -
www.oig.dhs.gov                                                  65                                                         OIG-14-25

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                  Findings 22 and 23


                  22.    Establish and implement procedures to ensure that equipment procured is needed and ready
                         for use as intended in a timely manner.

                  23.    For the unused equipment observed during the aud it:
                         • Determine if the equipment is needed;
                         •   If the equipment is needed, ensure that appropriate maintenance is routinely conducted
                             and that it is ready for use when needed;
                         •   If not needed, reassign the equipment to other sub-grantees who do need it; or
                         •   If not needed in Hawaii, consult with FEMA on the best use for the unused equipment.

                             State Department of Defense agrees with these findings.

                        Corrective Action: A procedural guide is being developed to address maintenance and
                        equipment use.

                        Estimated Completion: March 31, 2014

                        Discussion: The procedural guide will provide guida nce for maintenance of equipment, ensuring
                        equipment is ready for deployment when required. Sub-grantees are also being encouraged to
                        discuss equipment maintenance plans, service, and support with Public Works/Facilities
                        Maintenance. Policies exist for receipt of equipment; as indicated, the Homeland Security
                        equipment should not be t reated any differently that county/state equipment. All equipment
                        identified in t he Audit has been checked. Several of the items were in various stages of
                        preparations to issue which has since been issued to responsible parties. No equipment is
                        deemed excess for reissue.


              Findings 24, 25. and 26

              24.       Develop a sustainability plan that includes future funding sources and options for achieving the
                        Federally required national information sharing capabilities.

              25.       Focus the Center's goals and objective to include supporting national information sharing
                        capabilities as contained in the FY 2011 Homeland Security Grant Program Guidance and
                        Application Kit.

              26.       Establish and enforce a protocol for assessing the Center's progress in achieving the goals and
                        objectives included in the sustalnability plan.

                        The State Department of Defense does not agree with these findings.

                        Corrective Action: Continue the development of the Hawaii State Fusion Center.

                        Discussion: The Director ofthe Hawaii State Fusion Center started a week after the beginning of
                        the Audit. We understand the situation the Fusion Center must continue its growth. We are
                        also keenly sensitive to sustaining the Fusion Center. The new Homeland Security Office

                                          State of Hawaii Preliminary Audit Find ings        - -




www.oig.dhs.gov                                                   66                                                       OIG-14-25

                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




                  organizational structure is ready for submission which identifies permanent positions. The
                  State is planning a Joint Emergency Management Center that w hen built, will also house the
                  Hawaii State Fusion Center. This IS a long-term solution; short-term is to continue building the
                  Center so it is self-sufficient.

                  A sustainment outline was provided to Foxx and Company.




                                   State of Hawaii Preliminary Audit Findings


                                                                                                         -
www.oig.dhs.gov                                            67                                                        OIG-14-25

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix C
   Hawaii Grant Management Office
   Organization Chart




       Source: Hawaii Grant Management Office





www.oig.dhs.gov                                  68                  OIG-14-25

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix D
   Description of the Homeland Security Grant Program
   The HSGP provides Federal funding to help State and local agencies enhance capabilities
   to prevent, deter, respond to, and recover from terrorist attacks, major disasters, and
   other emergencies. The HSGP encompasses several interrelated Federal grant programs
   that together fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, and exercises, as well as management and administration
   costs. Programs include the following:

   •	 The State Homeland Security Program provides financial assistance directly to each
      of the States and Territories to prevent, respond to, and recover from acts of
      terrorism and other catastrophic events. The program supports the implementation
      of the State Homeland Security Strategy to address identified planning, equipment,
      training, and exercise needs.

   •	 The Urban Areas Security Initiative provides financial assistance to address the
      unique planning, equipment, training, and exercise needs of high-risk urban areas,
      and to assist in building an enhanced and sustainable capacity to prevent, respond
      to, and recover from threats or acts of terrorism and other disasters. Allowable costs
      for the urban areas are consistent with the SHSP. Funding is expended based on the
      Urban Area Homeland Security Strategies.

   The HSGP also includes other interrelated grant programs with similar purposes.
   Depending on the fiscal year, these programs include the following:

   •	 Metropolitan Medical Response System
   •	 Citizen Corps Program
   •	 Operation Stonegarden (beginning FY 2010)




www.oig.dhs.gov                               69                                	      OIG-14-25

                               OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix E
   Potential Monetary Benefits

                                Classification of Monetary Benefits
                                                        Questioned
                                         Funds To Be               Questioned
                                Rec.                     Costs –
              Finding                    Put to Better              Costs –          Total
                                No.                    Unsupported
                                              Use                    Other
                                                          Costs
    Total funds awarded by
                                  7                                   $1,551,000   $1,551,000
    sole source contracts
    Personnel time charges
    claimed without               9                       $857,209                  $857,209
    supporting documentation
    80 percent of the SHSP
    awards was not awarded
                                16, 17                                $3,275,509   $3,275,509
    to local governments as
    required
    Equipment Purchased but
                                 23       $1,725,000                               $1,725,000
    not used
     Total                                $1,725,000      $857,209    $4,826,509   $7,408,718
   Source: Foxx & Company 





www.oig.dhs.gov                                70                                        OIG-14-25

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix F
   Threat and Hazard Identification and Risk Assessment
   The National Preparedness System establishes the process to define and achieve specific
   capability targets and meet the National Preparedness Goal. One of the six components
   of the National Preparedness System includes identifying and assessing risk. The THIRA
   provides a comprehensive approach for identifying and assessing risks and associated
   impacts, using the core capabilities identified in the National Preparedness Goal and
   employing the following five-step process:

       1.	 Identify threats and hazards;
       2.	 Give threats and hazards context (assess vulnerability, how affects the community);
       3.	 Examine core capabilities using the threats and hazards (estimate consequences,
           impacts to the community);
       4.	 Set capability targets; and
       5.	 Apply the results (use results for planning and preparedness activities, identify
           means to deliver target level of capability).

   THIRA submission is required of all 56 States and territories receiving HSGP and
   Emergency Management Performance Grant funds and 31 eligible UASIs. The first THIRA
   submission was due December 31, 2012. Subsequent submissions will be an annual
   performance requirement for FEMA preparedness grant awards.

   In addition to the THIRA, States and territories receiving FEMA preparedness grants are
   required to annually submit a State Preparedness Report. FEMA officials state that
   THIRA results and the State Preparedness Report will provide a quantitative summary of
   preparedness, document current capabilities and potential shortfalls, and set priorities
   for addressing shortfalls. FEMA officials also state that the State Preparedness Report
   results will be used by the States to identify funding requirements and set priorities for
   subgrantee project applications. The grant application (investment justification) must
   demonstrate how proposed projects address gaps and deficiencies in delivering one or
   more core capabilities outlined in the National Preparedness Goal, and as FEMA
   official’s state, address capability gaps reported in the State Preparedness Report.

   FEMA officials said that the FY 2013 Homeland Security Grant Program funding
   announcement will require applicants to map proposed investments to specific core
   capabilities and capability gaps identified in the State Preparedness Reports, linking
   investments to actions that build and sustain capabilities aligned with the National
   Preparedness Goal. We have not had the opportunity to audit this process or the
   outcomes for this State.

www.oig.dhs.gov                                71                                 	     OIG-14-25

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix G
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  72                        OIG-14-25

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
